<html>
<title> - AMERICAN LEADERSHIP IN QUANTUM TECHNOLOGY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                          AMERICAN LEADERSHIP
                         IN QUANTUM TECHNOLOGY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

               SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY &
                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2017

                               __________

                           Serial No. 115-32

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-671 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia            ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         PAUL TONKO, New York
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
JIM BRIDENSTINE, Oklahoma            JERRY MCNERNEY, California
STEPHEN KNIGHT, California, Vice     PAUL TONKO, New York
    Chair                            JACKY ROSEN, Nevada
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              AMI BERA, California
NEAL P. DUNN, Florida                MARK TAKANO, California
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                            October 24, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     7

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    11

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    13
    Written Statement............................................    15

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    19

Statement by Representative Marc A. Veasey, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    21
    Written Statement............................................    23

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    25
    Written Statement............................................    26

                               Witnesses:
                                Panel I

Dr. Carl J. Williams, Acting Director, Physical Measurement 
  Laboratory, National Institute of Standards and Technology
    Oral Statement...............................................    27
    Written Statement............................................    30

Dr. Jim Kurose, Assistant Director, Computer and Information 
  Science and Engineering Directorate, National Science 
  Foundation
    Oral Statement...............................................    37
    Written Statement............................................    39

Dr. John Stephen Binkley, Acting Director of Science, U.S. 
  Department of Energy
    Oral Statement...............................................    52
    Written Statement............................................    54

Discussion.......................................................    70

                                Panel II

Dr. Scott Crowder, Vice President and Chief Technology Officer 
  for Quantum Computing, IBM Systems Group
    Oral Statement...............................................    90
    Written Statement............................................    92

Dr. Christopher Monroe, Distinguished University Professor & Bice 
  Zorn Professor, Department of Physics, University of Maryland; 
  Founder and Chief Scientist, IonQ, Inc.
    Oral Statement...............................................   101
    Written Statement............................................   103

Dr. Supratik Guha, Director, Nanoscience and Technology Division, 
  Argonne National Laboratory; Professor, Institute for Molecular 
  Engineering, University of Chicago
    Oral Statement...............................................   115
    Written Statement............................................   117

Discussion.......................................................   125


               AMERICAN LEADERSHIP IN QUANTUM TECHNOLOGY

                              ----------                              


                       Tuesday, October 24, 2017

                  House of Representatives,
          Subcommittee on Research & Technology and
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee on Research and 
Technology] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Comstock. The Committee on Science, Space and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Good morning, and welcome to today's joint hearing titled 
``American Leadership in Quantum Technology.'' Due to a 
scheduling conflict, I would like to first recognize the 
Chairman of the full Committee for a statement, Mr. Smith.
    Chairman Smith. Thank you, Madam Chairwoman, and let me 
explain, I have a Judiciary markup. Otherwise I would be happy 
to wait my turn, but I appreciate your deferring to me.
    The technology that we will review today is complex but it 
has the potential to revolutionize computing and to strengthen 
or undermine our future economic and national security.
    Quantum technology can completely transform many areas of 
science and a wide array of technologies including sensors, 
lasers, material science, GPS, and much more.
    Quantum computers have the potential to solve complex 
problems that are beyond the scope of today's most powerful 
supercomputers. Quantum-enabled data analytics can 
revolutionize the development of new medicines and materials 
and assure security for sensitive information, but even Bill 
Gates finds quantum technology to be challenging. He reportedly 
said, ``I know a lot about physics and a lot of math. But the 
one place where they put up slides and it is hieroglyphics, 
it's quantum.''
    We are fortunate this morning to be able to learn from 
expert witnesses who thoroughly understand and can explain in 
plain English all of quantum's complexities. How is that for a 
setup?
    Although the United States retains global leadership in the 
theoretical physics that underpins quantum computing and 
related technologies, we may be slipping behind others in 
developing the quantum applications, programming know-how, 
development of national security and commercial applications.
    Just last year, Chinese scientists successfully sent the 
first-ever quantum transmission from Earth to an orbiting 
satellite. A team of Japanese scientists recently invented an 
approach that apparently boosts calculating speed and 
efficiency in quantum computing. And European research teams 
are focusing on training quantum computer programmers and 
developing essential software.
    What if the Bill Gates and Steve Jobs of quantum computing 
are from Germany?
    According to a 2015 McKinsey report, 7,000 scientists 
worldwide, with a combined budget of about $1.5 billion, worked 
on non-classified quantum technology. Of these totals, the 
United States' estimated annual spending on non-classified 
quantum-technology research was the largest. But China, Germany 
and Canada were close behind. We need to continue to invest in 
basic research.
    We must also take steps to ensure that we have the 
workforce that the future will demand. The Bureau of Labor 
Statistics projects that employment in computer occupations 
will increase by 12.5 percent, or nearly a half-million new 
jobs, by 2024. That is more than any other STEM field. But 
future jobs in engineering, health sciences and all of the 
natural sciences will require computing and electronic 
information skills.
    The United States must also cultivate a new generation of 
visionary entrepreneurs and additional millions of scientists, 
engineers, designers, programmers and technicians who can 
compete in quantum-enabled technologies and other emerging 
fields.
    I thank our witnesses today for testifying on this 
important topic. I look forward to their testimony on the 
current state of quantum research and their recommendations 
about how to improve efforts in this area.
    Thank you, Madam Chairwoman, and I yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Chairwoman Comstock. Thank you, Mr. Chairman.
    And I now recognize myself for a five minute opening 
statement.
    Good morning, and I think if Bill Gates is intimidated by 
this topic, the rest of us mere mortals are very indebted to 
our expert witnesses today, so thank you for joining us.
    The topic of this morning's hearing, ``American Leadership 
in Quantum Technology,'' is important to our national security, 
global competitiveness and technological innovation. This 
hearing will provide us with a view of U.S. and other nations' 
research and development efforts to develop quantum computing 
and related technology. It will also identify what, if more, 
can be done to boost efforts.
    R&D in information technology provides a greater 
understanding of how to protect essential systems and networks 
that support fundamental sectors of our economy, from emergency 
communications and power grids to air-traffic control networks 
and national defense systems. This kind of R&D works to prevent 
or minimize disruptions to critical information infrastructure, 
to protect public and private services, to detect and respond 
to threats while mitigating the severity of and assisting in 
the recovery from those threats, in an effort to support a more 
stable and secure nation. As technology rapidly advances, the 
need for research and development continues to evolve.
    At the same time, I am hoping that we are preventing any 
duplicative and overlapping R&D efforts, thereby enabling more 
efficient use of government resources and taxpayer dollars.
    Considering the significant increase in global 
interconnectedness enabled by the internet, and with it, 
increased cybersecurity attacks, the potential security and 
offensive advantage that quantum computing and quantum 
encryption may provide is more essential than ever.
    Research in advanced materials and computer science 
continues to push the envelope of classical computing power and 
speed. Developments in quantum information science have raised 
the prospects of a new computing architecture: quantum 
computing. I am looking forward to our witnesses explaining 
more about this architecture, including superposition and 
interconnectivity.
    As difficult as the underlying science is for many of us to 
understand, it is easier to understand how quantum computing 
can change the world by revolutionizing the encoding of 
electronic information and supporting data analytics powerful 
enough to solve currently complicated or inexplicable problems. 
In today's hearing, I hope we are able to learn more about how 
quantum technology will revolutionize computing and how to 
promote continued technological leadership in the United 
States.
    I am also looking forward to learning how industry and 
others are engaged. As noted in a 2015 PCAST report, ``Today's 
advances rest on a strong base of research and development 
created over many years of government and private investment. 
Because of these investments, the United States has a vibrant 
academia-industry-government ecosystem to support research and 
innovation in IT and to bring the results into practical use.''
    It is clear that focusing our investments on information 
technology research and development is important to our nation 
for a variety of reasons, including economic prosperity, 
national security, U.S. competitiveness, and quality of life.
    I look forward to the hearing.
    [The prepared statement of Chairwoman Comstock follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. And I now will yield to the Ranking 
Member, Mr. Lipinski, for his opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock and Chairman 
Weber, for calling this hearing.
    The last time this Committee focused on quantum technology 
was in 2000 when a hearing was held on quantum and molecular 
computing. The state of the science and technology has come a 
long way since then, and so has the international competition.
    The underlying theory of quantum mechanics began to take 
shape in the 1920s. The first accurate atomic clock was built 
in the 1950s. It wasn't labeled as a quantum technology, but it 
took advantage of the quantum phenomenon known as 
superposition. Physicist Richard Feynman first mused about the 
possibility of quantum computers in 1981. In 1994, 
mathematician Peter Shor developed the first efficient 
algorithm for a quantum computer, demonstrating that quantum 
computing, when it arrived, would topple our current system of 
public-key encryption. Until then, quantum information science 
was still largely the purview of physics departments.
    In the years following Shor's breakthrough, quantum 
information science became increasingly interdisciplinary, 
attracting scientists and engineers from diverse fields.
    As we will hear from the witnesses today, quantum 
information science is at another significant turning point. 
Publications and patent applications are on the rise. Small 
companies are being formed. Major companies such as IBM, 
Google, and Microsoft are accelerating their investments in 
quantum-enabled technology.
    I want to highlight in particular the research partnership 
of the University of Chicago, Argonne National Lab, and Fermi 
National Accelerator Lab, which has been dubbed the Chicago 
Quantum Exchange. As we will hear from Dr. Guha, the Exchange 
was created to develop and grow interdisciplinary 
collaborations for the exploration and development of new 
quantum-enabled technologies, and to help educate a new 
generation of quantum information scientists and engineers. 
Partnership with the private sector is also an important 
element of the Exchange. The Chicago Quantum Exchange may be a 
model for the future of R&D in quantum information science.
    With respect to practical applications, the market for 
quantum sensing and metrology is very close to taking off. 
Technology developers envision a future in which quantum 
sensors eliminate the need to use GPS satellites for 
navigation, can be embedded in buildings to measure stress, can 
be woven into clothing to monitor vital signs, and can even be 
injected into our blood to help diagnose disease.
    Another practical application is quantum communications. 
This is an ultra secure method that uses quantum principles to 
encode and distribute critical information, like encryption 
keys, and will reveal if they were intercepted by a third party 
in transit. Multiple countries are investing heavily in this 
technology, which may be next in line for the commercial 
market. The world especially took note of China's launch of a 
quantum-enabled prototype communications satellite last year.
    Quantum computing may be further from becoming a reality, 
but the potential applications for both science and the 
commercial market are mind-boggling. These are exciting 
technologies. They also open the door to important policy 
discussions.
    As other countries are increasing their investments in 
quantum technology, in some cases guided by long-term 
strategies, now is the time for the U.S. to start developing a 
more coherent strategy of our own. We must consider the scale, 
scope and nature of federal investments, how best to facilitate 
and strengthen partnerships with the private sector, and the 
education and workforce training that will be required to power 
a quantum revolution. I have no doubt other important policy 
issues will emerge in this hearing, including, importantly, the 
impact on cybersecurity.
    I hope this hearing is followed by additional hearings in 
this Congress and the coming years that more deeply explore 
specific technologies and policy implications. In the meantime, 
I look forward to today's introduction to quantum information 
science and technology.
    I thank all of the witnesses for being here this morning to 
share your expertise, and I yield back the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairwoman Comstock. Thank you, and I now recognize the 
Chairman of the Energy Subcommittee, Mr. Weber, for his opening 
statement.
    Mr. Weber. Thank you, ma'am.
    Good morning and welcome to today's joint Research and 
Technology and Energy Subcommittee hearing. Today, we will hear 
from a panel of experts on the status of America's research in 
quantum technology, a field positioned to fundamentally change 
the way we move and process data. Hearings like today's help 
remind us of the Science Committee's core focus: the basic 
research that provides the foundation for technology 
breakthroughs. Before America ever sees the commercial 
deployment of a quantum computer, a lot of discovery science 
must be accomplished.
    Quantum technology has the potential to completely reshape 
our scientific landscape. I'm not going to attempt to explain 
quantum computing to you all; I'll leave that to the experts 
here today. But theoretically, quantum computing could allow 
for the solution of exponentially large problems, things that 
cannot be accomplished by even the fastest supercomputers 
today. It could allow us to visualize the structures of complex 
chemicals and materials, to model highly detailed flows of 
potential mass evacuations with precise accuracy, and to 
quantify subatomic interactions on the cutting edge of nuclear 
research.
    Quantum computing may also have profound implications for 
cybersecurity technology. With China and Russia focusing their 
efforts on quantum encryption, which could allow for 100 
percent secure communications, it is absolutely imperative that 
the United States maintain its leadership in this field.
    In order to achieve this kind of revolutionary improvement 
in technology, we are going to need foundational knowledge in 
the advanced computing and materials science required to 
construct quantum systems. For example, quantum hardware must 
be equipped to completely isolate quantum processors from 
outside forces.
    Further, because quantum computing differs from today's 
methods at the most basic level, quantum algorithms must be 
built from the ground up. Support for basic research in 
computer science and for computational partnerships between 
industry, academia, and the national labs is necessary to 
develop algorithms needed for future commercial quantum 
systems.
    The Department of Energy (DOE) Office of Science is the 
leading federal sponsor of basic research in the physical 
sciences, and funds robust quantum technology research. At 
Lawrence Berkeley National Lab, the National Energy Research 
Scientific Computing Center allows scientists to run 
simulations of quantum architectures. At Argonne National Lab's 
Center for Nanoscale Materials, researchers study atomic-scale 
materials in order to engineer the characteristics of quantum 
information systems. And at Fermi National Accelerator 
Laboratory, scientists are applying their experience in high-
energy physics to the study of quantum materials. DOE must 
prioritize this kind of ground breaking basic research over 
grants for technology that is ready for commercial deployment. 
When the government steps in to push today's technology into 
the market, it actually competes against private investors and 
uses limited resources to do so. But when the government 
supports basic research, everyone has the opportunity to access 
the fundamental knowledge that can lead to the development of 
future technologies.
    I want to thank our accomplished panel of witnesses for 
testifying today, and I look forward to a productive discussion 
about the future of American quantum technology research. I 
think I speak for my fellow members when I say that this is a 
complex topic, and Congress will need to rely on experts like 
you all to chart the course for quantum technologies.
    I thank the Chair, and I yield back.
    [The prepared statement of Mr. Weber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
     
    Chairwoman Comstock. Thank you. And I now recognize the 
Ranking Member of the Energy Subcommittee, Mr. Veasey, for his 
opening statement.
    Mr. Veasey. Thank you, Chairwoman Comstock and Chairman 
Weber, for holding this hearing, and thank you to the 
witnesses. I really appreciate you being here today. As was 
mentioned, this is a very complex topic, and you being here, 
providing your expertise, I think is going to come in very 
handy today.
    Quantum technologies have the potential to solve problems 
that were previously out of reach and push scientific discovery 
to new levels. A major breakthrough in this area could result 
in a significant transformation in our communications systems, 
computational methods, and even how we understand the world we 
live in.
    In addition to the distinguished group of researchers on 
our second panel, I am also delighted that we will hear from 
many of the most important federal agencies that lead our 
nation's research in this very important field. I hope this 
becomes a practice that we can expect for every relevant 
hearing this committee holds. The activities within the federal 
government that support the development of quantum technologies 
cut across many agencies, as we will see by those testifying on 
the first panel.
    I should note that in addition to NIST, NSF, and DOE, there 
are also a number of quantum-related activities taking place 
within the Department of Defense in DARPA and the military 
branches, as well as within the intelligence community.
    In 2016, the Obama Administration published an interagency 
working group report that highlighted the need for continued 
investment across all these federal agencies. It also called 
for stronger coordination and focused activities to address the 
impediments to progress in this field. Congress has provided 
consistent funding for these activities, though I would note 
that in order to compete with countries like China, Japan, 
Canada, and Italy, we will need to grow the investments that we 
are already making.
    Sadly, as we have come to expect with every hearing this 
Committee holds highlighting an important area of research, you 
can trust that the Trump Administration has proposed making 
cuts. Vital research in quantum materials is happening within 
the Department of Energy's Basic Energy Sciences program, and 
yet this year the Trump Administration has proposed to cut this 
critical program by $295 million, or 16 percent. While the 
Advanced Scientific Computing Research Program saw a slight 
increase in funding, most of that increase was to the exascale 
computing project. The research portfolio within this program 
that would actually support advancements in quantum computing 
saw a 15 percent cut in the budget proposal released earlier 
this year. This is not, this is not a path towards any sort of 
technological breakthroughs or quantum leaps.
    I would be remiss not to mention the Energy Frontier 
Research Centers also. The centers have generally enjoyed 
bipartisan support since the Obama Administration launched 
these innovative research collaborations across our national 
labs, universities, and industries. A few of these centers do 
important work that has the potential to advance our 
understanding of quantum technologies. They may provide us the 
breakthroughs we need to launch this field to new heights. 
While the Trump Administration also proposed cuts to these 
centers, I hope and expect my colleagues in Congress will 
continue to voice our strong support for researchers and their 
vital work. Strong and sustained investment across our research 
and innovation ecosystem is the only way we can expect to see 
results from our world-class researchers at our national labs, 
universities, and private companies. Quantum technologies are 
certainly no different in that regard.
    I look forward to hearing from both panels today on where 
this field can take us and what exciting new possibilities are 
on the horizon.
    Thank you again, Madame Chair, and I'd like to yield back 
the balance of my time.
    [The prepared statement of Mr. Veasey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairwoman Comstock. Thank you, and I now recognize the 
Ranking Member of the full Committee for a statement, Mrs. 
Johnson.
    Ms. Johnson. Thank you very much, and good morning. I 
really appreciate you for holding this important hearing, and I 
want to thank the witnesses for being here today.
    Quantum technology is an emerging field that will likely 
have a large impact on our nation's competitiveness in the 
industries of tomorrow. Its current and potential applications 
are frankly too numerous to mention, as they range from 
enabling vast improvements in our ability to discover and 
develop new pharmaceuticals to ensuring the security of our 
most critical infrastructure. So, as the Committee of the 
future, this is exactly the kind of area that we should be 
focusing our attention on, and I would encourage our Majority 
to hold many more hearings that follow this example.
    I also believe that we should strongly consider developing 
a National Quantum Initiative, and I look forward to engaging 
with my colleagues on the other side of the aisle in the hope 
that we can put together bipartisan legislation to make this 
happen.
    I would note that it will be much more difficult to ensure 
U.S. leadership in this crucial field if we don't at least 
provide sufficient resources to maintain our current rate of 
progress. Yet the Administration is proposing significant cuts 
to the agencies and programs that are at the vanguard of this 
effort. This would include an 11 percent cut to the National 
Science Foundation, a 6.6 percent cut to the quantum science 
research at the National Institutes of Standards and 
Technology, and a 16 percent cut to the Department of Energy's 
Basic Energy Sciences program. I look forward to hearing more 
about the impacts of these proposed cuts from both of our 
witness panels. Based on their written testimony alone, I 
expect that we will hear more than enough justification for 
substantially increasing our support for these quantum R&D 
efforts over the next several years.
    I thank you and yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Comstock. Thank you.
    I will now introduce our first panel of witnesses. Our 
first witness today is Dr. Carl Williams, Acting Director of 
the Physical Measurement Laboratory at the National Institute 
of Standards and Technology. Dr. Williams is a Fellow of the 
Joint Quantum Institute and the Joint Center for Quantum 
Information in Computer Science, and he is an Adjunct Professor 
of Physics at the University of Maryland. He also directs the 
Quantum Information Program and helps lead the National 
Strategic Computing Initiative at NIST.
    Additionally, he's a member and chairs interagency efforts 
in support of these activities under the Committee of Science 
of the National Science and Technology Council. He received a 
Bachelor of Arts in physics from Rice University and a Ph.D. 
from the University of Chicago.
    Dr. Jim Kurose is our second witness. He's the Assistant 
Director of Computer and Information Science and Engineering 
Directorate at the National Science Foundation. Prior to NSF, 
he was a Distinguished Professor in the School of Computer 
Science at the University of Massachusetts-Amherst.
    He also currently serves as Co-Chair of the Networking and 
Information Technology Research and Development Subcommittee of 
the National Science and Technology Council Committee on 
Technology, which provides overall coordination for the IT 
research and development activities of 18 federal government 
agencies and offices. He holds a Bachelor of Arts in physics 
from Wesleyan University as well as a Masters of science and a 
Ph.D. in computer science from Columbia University.
    Dr. Stephen Binkley is our third witness today, and he is 
Acting Director of Science at the U.S. Department of Energy. In 
this role, he provides scientific and management oversight for 
the six science programs of the Office of Science including 
advanced scientific computing research. Previously, he has held 
senior positions at Sandia National Laboratories, the 
Department of Homeland Security, and the Department of Energy. 
He has conducted research in theoretical chemistry, material 
science, computer science, applied mathematics, and 
microelectronics. He received a Bachelor of Science in 
chemistry from Elizabethtown College as well as a Ph.D. in 
chemistry from Carnegie Mellon University.
    I now recognize Dr. Williams for five minutes to present 
his testimony.

      TESTIMONY OF DR. CARL J. WILLIAMS, ACTING DIRECTOR,

                PHYSICAL MEASUREMENT LABORATORY,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Williams. Thank you. Ranking Member Johnson, Chairwoman 
Comstock, Chairman Weber, Ranking Member Lipinski, Ranking 
Member Veasey, and members of the Subcommittees, I am Dr. Carl 
Williams, the Acting Director of the Physical Measurement 
Laboratory at the Department of Commerce, National Institute of 
Standards and Technology, known as NIST. Thank you for the 
opportunity to appear before you today to discuss NIST's role 
in quantum science and quantum computing.
    As this nation's national metrology institute, NIST 
conducts basic and applied research in quantum science to 
advance the field of fundamental metrology as part of it's core 
mission by developing more precise measurement tools and 
technologies to address industry's increasingly challenging 
requirements. This work has positioned NIST both as a global 
leader among national metrology institutes, and as one of the 
world's leading centers of research and engineering.
    While NIST's work in quantum science is revolutionizing the 
world of metrology, it also has direct application to quantum 
communications and quantum computation. Today I'll describe in 
detail more of NIST's quantum research efforts and how they are 
being leveraged to positively advance the field.
    Many nations view leadership in quantum computing as 
critical to making significant breakthroughs in medicine, 
manufacturing, artificial intelligence, and defense and reaping 
the rewards from those investments and breakthroughs. The 
United States has long been viewed as a leader in quantum 
science, information, and computing. Significant historic 
investments by the U.S. government have supported a robust base 
of fundamental research and this has led to several 
transformational breakthroughs in the field.
    Today, U.S. leadership in quantum science and technology is 
increasingly dependent on significant investments from U.S. 
technology giants and major defense companies with a natural 
interest in many commercial applications of quantum technology 
beyond computing. These applications include quantum 
communications, quantum algorithms and software, data security, 
imaging, and quantum sensors, and could be applied to anything 
from national security to the Internet of Things to advance 
sensors for gas and oil exploration.
    While NIST has made significant breakthroughs, the rest of 
the world has not been standing still, and U.S. companies are 
taking notice. Worldwide interest in investment quantum 
computing-related technologies have spiked in recent years, 
following important increasingly complex technological 
demonstrations by overseas research efforts.
    At NIST, our researchers study and harness quantum 
mechanical properties of light and matter in some of the most 
well-controlled measurement environments to create the world's 
most sensitive and precise sensors and atomic clocks. NIST has 
been a leader in the field of quantum information from the 
beginning and its multiple Nobel prize-winning contributions 
have helped move quantum computing and quantum information 
scientific fields of study to technological ones.
    These breakthroughs in precision timekeeping have critical 
real-world applications to navigation and timing. Today, 
commercial atomic clocks contained in GPS satellites provide 
the timekeeping precision that we take for granted when we use 
our GPS devices to pinpoint our location to within a meter of 
almost anywhere on Earth. Atomic clocks are just one example of 
NIST research focus on measurement science and has applications 
to quantum computing.
    Superconductors are also used by researchers at NIST to 
make ultrasensitive single photon detectors using precision 
photonic measurements. These specially designed sensors have 
become essential components in experiments at NIST to test the 
foundations of quantum mechanics and realize quantum 
teleportation. Progress in quantum teleportation is expected to 
be essential for eventual commercial quantum computing and for 
other forms of quantum information transfer.
    NIST's programs on quantum algorithms and postquantum 
cryptology further build on our core effort in quantum 
information theory with a focus on addressing security 
challenges anticipated when practical quantum computers are 
realized. NIST, working with industry has played a leading role 
since the 1970s in developing cryptographic standards. NIST 
researchers are using their understanding of quantum algorithms 
to create new classical encryption algorithms, commonly 
referred to as post-quantum cryptography, that will be 
resistant to quantum computing attacks.
    NIST recognizes that it has an essential role to play in 
U.S. leadership in quantum computing and information. However, 
that role is not to build a quantum computer. NIST's role, 
consistent with its mission, is to develop the foundational 
knowledge and measurement science support for U.S. leadership 
in quantum computing and to ensure that our cybersecurity 
infrastructure remains resilient in the quantum era.
    NIST is extremely proud of the world-class quantum science, 
quantum information, mathematics and computer science programs, 
and we appreciate the support of this Committee for NIST's 
research efforts. Sustained advancements by NIST in these 
fields continue to underpin success in many parts in its 
measurement science mission and to contribute to U.S. 
leadership in quantum computing.
    Thank you for the opportunity to testify today. I would be 
happy to answer any questions you may have.
    [The prepared statement of Dr. Williams follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Chairwoman Comstock. Thank you, and I now recognize Dr. 
Kurose for five minutes to present his testimony.

        TESTIMONY OF DR. JIM KUROSE, ASSISTANT DIRECTOR,

                COMPUTER AND INFORMATION SCIENCE

                  AND ENGINEERING DIRECTORATE,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Kurose. Thank you very much. Good morning, Ranking 
Member Johnson, Chairwoman Comstock, Chairman Weber, Ranking 
Member Lipinski, and Ranking Member Veasey. My name is Jim 
Kurose. I'm the Assistant Director at the National Science 
Foundation for Computer and Information Science and 
Engineering. As you know, the National Science Foundation 
supports fundamental research in all areas of science and 
engineering disciplines; supports for education and training 
for the next generation of discoverers and innovators, and 
contributes to national security and U.S. economic 
competitiveness. I welcome this opportunity to highlight the 
promise of quantum information science, which I'll call QIS--so 
that's a little bit of an acronym alert here--and NSF's 
investment in QIS and their impact on our nation's security and 
economy.
    QIS harnesses quantum phenomena with the promise of 
creating more precise measurement systems, more accurate 
sensors, more secure communication, and more advanced computers 
that will outperform today's most powerful digital 
supercomputers on a range of problems in materials science, 
molecular simulation, design and optimization, and 
cryptography. There will be benefits in nearly all areas and 
all sectors of the economy as well as new challenges, 
particularly in the area of cybersecurity.
    NSF's investments in fundamental long-term research have 
been crucial to a national strategy for sustaining leadership 
in QIS. For several decades, NSF has funded research that has 
defined the frontiers of QIS. NSF's investments in QIS research 
span multiple disciplines including mathematical and physical 
sciences, engineering, and computer science, and in four areas: 
in the fundamentals that advance our understanding of uniquely 
quantum phenomena and their interaction with classical systems; 
in elements that model, control, and exploit quantum particles 
and measure them; in software systems and in algorithms that 
enable quantum information processing; and in the workforce 
including training a new generation of scientists, engineers, 
and educators for a globally competitive workforce.
    NSF annually has invested approximately $30 million in QIS 
research and education activities plus another $40 million in 
facility-related investments. Looking forward, QIS will 
continue to be an important part of NSF's research portfolio.
    The National Science Foundation recently announced 10 Big 
Ideas that form a cutting-edge research agenda. One of these 
Big Ideas, the Quantum Leap: Leading the Next Quantum 
Revolution, is aimed squarely at advancing QIS. Another Big 
Idea, Growing Convergence Research at NSF, seeks the deep 
integration of knowledge, techniques and expertise from 
multiple fields that are needed to address scientific 
challenges in areas including QIS.
    NSF's investments in QIS research have been accompanied by 
investments in education and workforce development as well. 
Academic QIS researchers are also teachers. They take their 
latest developments from the lab to the classroom and they 
mentor research students and postdocs. For example, Dr. Krysta 
Svore was an NSF-funded graduate student at Columbia University 
focusing on computational complexity in quantum computing. 
Today she's a leader at Microsoft Research developing real-
world quantum algorithms and designing quantum software 
architectures. Dr. Svore is emblematic of the unique flow of 
ideas and people and artifacts between academia and industry in 
our nation. In information technology areas, this flow has been 
characterized by the so-called ``tire tracks diagram,'' which 
documents in multiple reports from the National Academies the 
flow of ideas, people and artifacts back and forth. Indeed, NSF 
frequently partners with industry to accelerate programs in 
mutual areas of interest, and QIS is one of these areas.
    NSF's close coordination and collaboration with other 
federal agencies has been critical in shaping its QIS 
investments. Together with DOE and NIST, NSF co-chairs the 
Interagency Working Group on Quantum Information Science, which 
was established in 2009 under the National Science and 
Technology Council's Committee on Science. Last year, the QIS 
working group released a report, Advancing Quantum Information 
Science: National Challenges and Opportunities, which notes the 
promise in this area and NSF's key role as an agency in 
supporting QIS fundamental research, workforce development, and 
technology transfer.
    My testimony today has really emphasized the potential of 
QIS in a wide range of areas from harnessing unrivaled 
computing power to securing communications to developing novel 
therapeutics for some of our most vexing diseases. NSF has made 
significant long-term investments in fundamental and 
multidisciplinary QIS research. These investments have laid the 
foundations for QIS as we know it today, and in turn are 
enabling U.S. researchers and industry to lead abroad. I've 
described how NSF's education portfolio is working to develop a 
next-generation QIS-capable workforce.
    This concludes my remarks, and I'm very happy to answer 
questions.
    [The prepared statement of Dr. Kurose follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
       
    Chairwoman Comstock. Thank you, and I now recognize Dr. 
Binkley for five minutes.

             TESTIMONY OF DR. JOHN STEPHEN BINKLEY,

                  ACTING DIRECTOR OF SCIENCE,

                   U.S. DEPARTMENT OF ENERGY

    Dr. Binkley. Thank you, Chairwoman Comstock, Chairmen 
Weber, Ranking Member Lipinski, Ranking Member Veasey, and 
Members of the Subcommittee. I'm pleased to come before you 
today to discuss quantum information science and technology, 
the Department of Energy's research efforts and interagency 
collaboration in this area, and where the United States stands 
relative to international competition.
    I am presently the Acting Director of the Office of Science 
at the U.S. Department of Energy. Quantum information science, 
or QIS, for short, which includes quantum computing, is a 
rapidly evolving area of science with great scientific and 
technology import, and because it will open new vistas for both 
science and technology development and hence new commercial 
markets, the U.S. and other countries are increasing 
investments in related basic research and technology 
development. DOE and other government agencies believe that QIS 
will continue to grow in importance in the coming decade and 
are planning our investments accordingly.
    Current and future QIS applications differ from earlier and 
ongoing applications of quantum mechanics such as those that 
led to the laser by exploiting distinct quantum behavior that 
does not have classical analogs and does not arise in non-
quantum systems such as superposition and entanglement.
    Quantum information concepts are providing increasingly 
important--or providing increasingly important in advancing 
understanding across a surprisingly large range of fundamental 
topics in the physical sciences including the search for dark 
matter, the emergence of space time, testing of fundamental 
symmetries, the black hole information paradox, probing the 
interiors of cells in plants and animals, and possibly even 
photosynthesis.
    Furthermore, a wide range of applications of QIS are being 
explored including in sensing and metrology, communication, 
simulation, and computing. With these motivations, recent QIS 
advances have been rapid and international, and industry 
attention and investments have been growing. QIS clearly 
represents an emerging field with crosscutting importance 
across DOE Office of Science program offices. DOE is uniquely 
positioned to cover a wide range of QIS activities with 
expertise and capabilities in frontier computing, quantum 
materials, quantum information, control systems, production and 
use of isotopes, cryogenics and so on spanning the National 
Laboratory system and multiple program offices within the 
Office of Science.
    At the federal level, quantum information science has been 
a topic of interest to federal agencies for some time including 
NIST, the National Science Foundation, and DOE, which are 
working closely together and has garnered greater attention in 
the past few years due to a confluence of events, namely 
theoretical and technological progress in the field, the 
slowing of an apparently rapidly approaching end to Moore's 
Law, advancement in semiconductor technology and aggressive 
investments by other nations.
    DOE's National Laboratories have unique attributes that are 
complementary to those of other agencies and could address gaps 
identified in the national ecosystem for quantum information 
science and technology. The Department of Energy labs are well 
equipped to address challenging problems in fundamental 
research that requires sustained efforts or are too large in 
scope for university research groups. DOE labs additionally 
stand out in their ability to fabricate and characterize novel 
materials and devices, their expertise in using high-
performance computing resources, and their diverse range of 
high-caliber scientists and engineers that can form the basis 
of interdisciplinary teams, which are the type that are needed 
to solve QIS problems.
    Worldwide interest in QIS and related technology has 
increased substantially in the past five years. While the 
United States remains the leader in the field, other nations 
have made significant new investments and have developed long-
term strategies that already have shifted geographical 
distribution of some top-tier research groups. The largest 
quantum information science and technology programs outside the 
United States are in China, the European Union, and the United 
Kingdom, and those countries are planning ambitious 
investments.
    I would like to thank you for the opportunity to come 
before you today to discuss the importance of QIS and the 
Department of Energy's efforts in this area. I look forward to 
discussing this topic with you and answering your questions.
    [The prepared statement of Dr. Binkley follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairwoman Comstock. Thank you, and I now recognize myself 
for five minutes of questions, and this is definitely an 
intimidating topic. Thank you for your testimony.
    Now, Dr. Kurose, conversations around STEM education are 
often closely tied to demand for certain jobs, and without 
knowing the exact workforce needs surrounding quantum just yet, 
how do we prepare for such a workforce, and how can young 
people be directed? If they're interested in this, what should 
they be doing now?
    Dr. Kurose. Thank you very much for the question, and it's 
really great. And maybe let me highlight education and 
educational opportunities at different levels, and I'll start 
at the graduate level because I mentioned that in my testimony. 
Remember that the generation of researchers who are going to 
push us forward in QIS, they're in labs now and they're 
graduate students and they're postdocs working in those labs 
now. Those researchers will then be taking their education out 
and spreading it and using it in industry, for example. At the 
undergraduate level, we're seeing courses now in quantum. We're 
seeing seminar courses there. So I think at the undergraduate 
level, we're beginning to see the educational opportunities 
appear.
    When we think about the workforce more broadly, I think we 
really need to think about the STEM pipeline and address issues 
in K-12. I would say there are focus areas in particular, the 
notion of computational thinking that the National Science 
Foundation and other agencies have led in terms of computer 
science for all and computer science principles. Access to a 
rigorous and engaging computer science education at the high 
school level will really help prepare the students in middle 
schools and in high schools for engaging in computer science 
and in STEM more broadly, I think, at the college level.
    Maybe one other area that I might like to highlight is that 
when you look at the people that you've invited here to testify 
that you'll see you have engineers, you have computer 
scientists, you have physicists, and it's really going to take 
participation from across all of the STEM disciplines to make 
QIS really happen. And so it's important broadly across STEM 
that we train the next generation of researchers.
    Yes, my area is computer science so I think it's incredibly 
important but this is an area that all of STEM--engineering, 
mathematics, physical sciences, chemistry, computer science--
are going to have to be involved.
    Chairwoman Comstock. And then how would a national quantum 
initiative meet the challenge to attract and retain U.S. talent 
in this field given the significant challenges for all of you. 
Any of you who'd like to answer on that?
    Dr. Williams. So should Congress and the Executive Branch 
decide to have a quantum initiative in this area, we'd be happy 
to work with you to help address some of the impediments that 
were listed in the 2016 document, and to foster that broader 
ecosystem that's going to be necessary to translate this from 
academia and the National Labs into our industrial base because 
it is that translation into the industrial base that is key.
    Dr. Kurose. I might add that I think our collective sense 
is that we're at an inflection point with QIS. For many years--
and the investments by our agencies go back many, many years 
that everybody knew quantum was going to be something very, 
very important, and we were doing the foundational work. I 
think especially if you look at industry, you look at what's 
happening in the laboratories in academia across the United 
States, there's a sense that things have manifestly changed in 
the last couple of years and now we're seeing programmable 
computers. Chris Monroe from the University of Maryland will be 
one of the witnesses in the next panel. You have IBM. Both of 
them have made general purpose or programming capabilities 
available on real quantum hardware at this point. I think that 
was the dream five years ago. We're realizing that reality now. 
It's going to be a while until we get enough qubits and we can 
do meaningful computations at scale but we're seeing this now 
in the real world. We're seeing on hands-on abilities to 
actually experiment with these systems.
    Chairwoman Comstock. Thank you. I appreciated that.
    And I will now yield to the Ranking Member, Mr. Lipinski, 
for his questions.
    Mr. Lipinski. Thank you. I want to continue on a bit with 
the Chairwoman's questions but I'll just start out by talking 
about something that's already been brought up about China 
launching the quantum-enabled satellite transmittal to secure 
data, the 1,200-mile quantum communications link between 
Shanghai and Beijing. China has also recently announced a $10 
billion quantum computing center. Europe is also heavily 
investing in quantum information science as are other nations.
    So the question is, where do we go and what do we need to 
do from here? Unfortunately, the Trump Administration budget 
proposed an 11 percent cut to NIST, a 6.6 percent cut to 
quantum information science--actually an 11 percent cut to NSF, 
6.6 percent cut to quantum information science at NIST, and 16 
percent cut to DOE's Basic Energy Sciences program where Dr. 
Binkley just testified that much of quantum research is 
supported. So obviously these cuts would presumably be harmful. 
What do we need to do? What would you recommend that we do? 
Obviously the federal government is not going to, you know, 
spend--go to any length, spend any amount of money, but we 
certainly need to do something. The idea of having a quantum 
initiative I think is a great idea. I'm very hopeful that we'll 
be working on that. We have a National Nanotechnology 
Initiative. I think a quantum initiative would be great to 
have, as I think the Chairwoman was talking about, but what do 
you think that we need to do from the federal government level? 
Obviously it's not just the federal government involved. 
There's also the private sector. But what would you like to see 
happen? How much of an investment do we have to make so that 
the United States does not really fall behind and miss this? So 
let's start with Dr. Williams. Any ideas that you would have, 
what you would suggest?
    Dr. Williams. So I think in winning this game that it is 
not just what the role of the U.S. government, it's also the 
commitments by American industry. We need to all work together, 
and moreover, we need to transition the knowledge base that is 
currently largely in academia and universities and a few small 
research environments in industry to where more industry is 
aware. Because, again, if you look at the broader making up of 
something like an iPhone or anything else so we can talk about 
the qPhone in the future, there are many manufacturers that 
have to come in, and so arranging for all those OEM companies 
to be engaged, make them aware, to bring them to the table, and 
so a lot of the impediments that are talked about in the 2016 
documents, which is multidisciplinary in nature, must be 
addressed but we also must address pulling the technology out 
until there is a real pull from industry because at the moment 
it's a push because they don't see how to make a profit in this 
area.
    Mr. Lipinski. Dr. Kurose?
    Dr. Kurose. Well, actually I'd like to second Dr. Williams' 
comments. If you look at industry and you see, you know, over 
the last year where Google and Microsoft and IBM and Intel have 
been doing, it's clear there's really--when we talked about an 
inflection point earlier, there's very much increased interest 
in academia. And you'd mentioned the word partnership so I 
think partnerships with industry are going to be very 
important. I mentioned the tire tracks diagram in the 
information technology area. We have a long history of 
establishing partnerships between academic institutions with 
industry and government in a triangle, if you will. At the 
National Science Foundation, for example, we've done 
partnerships with Intel, with Semiconductor Research 
Corporation, with VMware on joint solicitations. This is basic 
fundamental research, because that's still what's needed now, 
basic fundamental research, but industry can bring a lot to the 
table. Other aspects of partnership, again to echo what Dr. 
Williams was saying, is partnerships among disciplines, you 
know, bringing together the physicists, the engineers, the 
computer scientists, we would say up the technology stack, if 
you will, from the qubits all the way at the very bottom all 
the way up to the programming at the top. And then again, 
partnerships among agencies, which I believe all three of us 
have already talked about.
    Mr. Lipinski. Dr. Binkley?
    Dr. Binkley. Just very briefly, the one point that I would 
add to what my counterparts have suggested is if you look 
historically, one of the greatest strengths of U.S. science 
programs has been the emphasis on basic science, and by 
contrast, if one looks at the efforts that are being put 
forward both in the European Union and the United Kingdom, they 
have a very strong technology focus, and I think that we should 
not lose sight of the fact that much of the innovation that is 
necessary for making rapid progress in this area does actually 
come out of the basic science, and so continued investments in 
the basic science is, I think, at this point very important to 
sustain.
    Mr. Lipinski. Thank you. I yield back.
    Chairwoman Comstock. I now recognize Mr. Weber for five 
minutes.
    Mr. Weber. Thank you, Madam Chair.
    Doctor--well, first of all, let me do it this way. Dr. 
Williams, how long have you been involved in the quantum field?
    Dr. Williams. So formally, NIST has had a program since the 
year 2000, and I've been engaged in there. I was at the first 
workshop that I think was solely focused on QIS back in 1994 
that was held at NIST shortly after Peter Shore came up with 
his algorithm.
    Mr. Weber. Okay. Dr. Kurose?
    Dr. Kurose. Well, I have an undergraduate degree in physics 
and learned quantum mechanics as an undergraduate but my 
involvement with QIS research began when I came to the National 
Science Foundation three years ago.
    Mr. Weber. So that's 2014.
    Dr. Binkley?
    Dr. Binkley. I did my Ph.D. work in quantum chemistry and 
got my Ph.D. in 1976, and I've been involved in quantum theory 
and quantum-related work ever since.
    Mr. Weber. Good gracious. Okay. You should be a quantum 
leap ahead of everybody else.
    Dr. Binkley. Sir, I'm afraid it's a terribly difficult 
subject.
    Mr. Weber. I understand.
    Dr. Kurose, your written testimony touches on the 
differences between classical computing like the exascale 
computing systems we've heard so much about in this Committee, 
and quantum computing. Explain the difference for us as briefly 
as you can.
    Dr. Kurose. Okay. Well, in traditional supercomputers, for 
example, information is stored in bits, ones and zeros, and we 
operate on those bits, so we perform operations and all kinds 
of transformations. That's the way computing technology has 
been done since its invention 70 years ago. Cubits, as my 
colleagues with Ph.D.'s in physics can tell you better than I 
can, are a very different piece. They don't exist in the one-
zero state; they exist in a superposition of states, and from a 
computing standpoint, that allows one to rather than compute 
deterministically over ones and zeros to deal with probability 
distributions of how the states of the qubits are in the 
entanglement, the interrelationship between these qubits. It's 
a fundamentally different way of thinking about computation and 
moving from ones and zeros to these qubits.
    Mr. Weber. Okay, to an identifiable state, either one or 
zero, and now to a single particle that has the ability to do 
both?
    Dr. Kurose. Right, and I would say in the end, you need an 
answer that has ones and zeros and so there is going to be a 
very important coupling between the digital systems that 
control and program these quantum computers and the quantum 
technology that's lying at the base underneath.
    Mr. Weber. So very quickly then, what you're saying then is 
that these two systems will interact. Because you just said in 
the end, you need the ones and the zeros, the binary code.
    Dr. Kurose. That's right. So traditional computing will 
play a very important role in terms of the programming and the 
control of the quantum computing. I'd mentioned earlier the 
fact that you can now program quantum computers using the 
digital programming to sort of wrap around the quantum.
    Mr. Weber. So we're going to hear about that in the next 
panel.
    Dr. Kurose. I think you'll hear about that in the next 
panel.
    Mr. Weber. Dr. Binkley, for you, we spent a lot of time on 
this Committee discussing high-performance computing, 
particularly DOE's goal to create an exascale computing system 
by 2021. How does the push to study quantum information systems 
fit in with that goal?
    Dr. Binkley. At the Department of Energy, we see quantum 
computing as something that follows the efforts that we're 
doing in exascale computing. There are classes of physical 
problems that are characterized by the Schrodinger equation, 
which is the basis of all quantum mechanics. For example, most 
of the materials in chemical sciences fall into that category. 
Today we do calculations of an approximate nature on digital 
computers for the purpose of furthering our knowledge in those 
areas. Quantum computers will enable us to do much, much better 
calculations, exact calculations, as it were, when they finally 
become available. However, there will still remain applications 
in high-performance computing that are not quantum in nature.
    Mr. Weber. Back to the ones and zeros you talked about.
    Dr. Binkley. Exactly, the ones and zeros, and those 
calculations, for example, structural calculations of materials 
looking at doing engineering types of calculations, looking at 
nuclear fission reactors, looking at heat flow and things like 
that, will still remain inherently digital. And so there will 
be a continuing need for simulations of that class.
    Mr. Weber. So you foresee a parallel path, quite frankly?
    Dr. Binkley. Yes, sir. We see the two different 
technologies as being very complementary in the future.
    Mr. Weber. Madam Chair, can I indulge for about another two 
or three hours? This stuff is fascinating.
    I yield back.
    Chairwoman Comstock. And I now recognize Mr. Veasey for 
five minutes.
    Mr. Veasey. Thank you, Madam Chair.
    I wanted to just kind of piggyback a little bit on Mr. 
Lipinski's questions earlier revolving around international 
competition. We know that obviously whatever country is able to 
capitalize on this, the gains are going to be huge, and I 
wanted you to expand a little bit more about the cuts. As it 
was mentioned earlier I believe in my comments that the Trump 
Administration's budget proposal cuts include 11 percent to 
NSF, about a 6.6 percent cut to quantum information science at 
NIST, and a 16 percent cut at DOE, and I wanted to know if all 
of you could expand more on the impact of the cuts, because I 
think that that is important, particularly again as it relates 
to competition.
    Dr. Williams. So at NIST, we always maximize resources that 
are provided to us by the Committee, and when we go in to 
optimize our portfolio, we always work to ensure that whatever 
decisions that are made by Congress and the Executive Branch 
that we implement them in a manner that provides the best 
return to the nation.
    Dr. Kurose. So I'd like to simply say that among the 
agencies that you see here, and other agencies that we have 
been investing in QIS. We've provided the scientific foundation 
that we see today. I think again, because we're seeing an 
inflection point, now is the time, a very opportune time, to 
accelerate those investments and to accelerate our progress 
forwards. And you know, I will mention that funding, academic 
funding in computer science and physics and engineering, is 
very competitive and we go through a merit review process. If 
you look at the outcomes of the merit review process we leave 
lots of good ideas, really great ideas, on the cutting-room 
floor because we have a budget, we work within those budget 
constraints, and we maximize the investments that we can make, 
but there are lots of good ideas that we're not able to fund 
and that go through the merit review process with very high 
scores.
    And so again, I think especially in an area like QIS where 
we're at a change point that additional investments simply 
allow accelerating progress in a very important area.
    Dr. Binkley. At the Department of Energy in our fiscal year 
2018 budget, we obviously had some very difficult decisions to 
make, and even in light of the significant reductions that 
were, you know, put forward by the Administration, we did 
manage to increase funding for QIS. Our budget request 
contained essentially a $40 million increase in QIS-related 
funding, and that came about through a long process of planning 
and thoughtful attention looking at the opportunities in the 
area, and also what we perceive to be the strategic importance 
of the area.
    Now, obviously, you know, that impacted other activities in 
the Office of Science portfolio but nevertheless, the judgment 
of our senior leadership team was that this is an area that, as 
Dr. Kurose has mentioned, has reached an inflection point and 
it's timely to really increase investments in this area.
    Mr. Veasey. Dr. Kurose, you talked a little bit about the 
importance of accelerating the funding. As it relates to 
competition with other countries, how important is accelerating 
the funds, accelerating the resources that we need in order to 
keep that competitive edge here in the United States?
    Dr. Kurose. Well, I think it's important to be accelerating 
both in the basic science, which I think Dr. Binkley mentioned, 
and also in the technology. Several members have mentioned 
China's advances in the quantum satellite communication. In a 
sense, that was something that folks foresaw as happening. 
Scott Aaronson, who's a physicist at the University of Texas in 
Austin, and worksin quantum said this was not unexpected but 
the real significance of this news, he says, is not that it was 
unexpected or that it overturns anything previously believed 
but that simply it's the satisfying culmination of years of 
hard work. So we need to push forward on the basic science 
frontiers but there's also now pushing forward on the 
technology and the implementation sides as well.
    Mr. Veasey. Thank you very much, Madam Chair. I yield back 
the balance of my time.
    Chairwoman Comstock. Thank you.
    And I now recognize Mr. Webster for five minutes.
    Mr. Webster. Thank you, Madam Chair.
    Dr. Williams, there's a lot of talk about how much money 
we're going to have and what we need it for and so forth. Would 
you say that even if we were able to maintain or even 
accelerate the funding, if there was something else that came 
in and siphoned away some of that money, would that be 
detrimental to the study of quantum and our success in that? 
Would you see that being detrimental, anything that would 
siphon away money?
    Dr. Williams. I think as one moves--again, there's a lot of 
basic research but as one moves to transitioning this 
technology into our broader base, whether for national security 
or for economic security, that if we do not exploit the seed 
corn that we have created, that other nations will exploit it 
for us and they will end up reaping the economic benefit of it. 
So I think that the United States somehow has to figure out how 
we end up owning this technology the same way that we own the 
technology for the transistor and all the benefits that came 
from that.
    I and Dr. Binkley were at the EU kickoff, and one of the 
small European companies basically pointed out the transitor 
was also found there in Europe and they thought it was a toy. 
We exploited it, and we reaped the benefits of that. So I think 
we're going to have to reap the benefits of the corn that we 
have sowed.
    Mr. Webster. And it would be more than economic. You 
mentioned economic benefits. I mean, there are more benefits 
than just that, isn't there?
    Dr. Williams. Yes, absolutely. The national security 
implications because again, sensors are used in our military. 
They're not only used in the military but they're used for 
mining and other things. So I mean, there are broad economic 
and national security implications to QIS technology.
    Mr. Webster. Dr. Kurose, do you have anything to add to 
that?
    Dr. Kurose. Well, I was just standing--sitting here shaking 
my head yes, yes, yes. So I agree with what Dr. Williams said.
    With respect to national security, Chairwoman Comstock 
mentioned in her opening remarks the importance of quantum--in 
terms of quantum encryption and postquantum encryption and the 
powerful nature of quantum computing. It's one area where 
quantum computing, is not a panacea for all kinds of computing 
but one area where it's going to be very, very important is in 
cryptography. It's one of the things that can be done really 
well there, and that has tremendous ramifications for national 
security and also for economic competitiveness.
    Mr. Webster. Dr. Binkley?
    Dr. Binkley. Following up on the theme introduced by Dr. 
Williams, if you look around, digital electronics pervades 
everything that we do today, and the quantum technologies that 
are coming about through research in QIS are likely to have a 
similar effect as we move into the future, and you know, we are 
in fact at an inflection point and the time really to invest is 
now.
    Mr. Webster. Madam Chair, I would say that in this 
Committee we've had people come and testify about taking away 
some of the money and adding it in to another program, but I 
would say that the testimony here would be a direct assault on 
that in that having money diverted into some other program by 
us would be detrimental to our advancement. I mean, there is an 
imperative. We're not in sort of just a walk. We're in a run, a 
race. We're trying to be number one. And so I know a lot of 
people have bought into the fact that STEAM should replace 
STEM, and all I can tell you is that to me says some of the 
money gets diverted, and I think that would be a bad thing. 
There's nothing wrong with the arts and other things, I think 
those are great, but we're in a race, and if we're going to win 
this particular race, this race that we're in now, we're going 
to have to take all of our resources for that particular race 
and put them there. So long live STEAM, I'm glad for it, but on 
the other hand, if we want to win this race, we're going to 
have to focus on STEM. I yield back.
    Chairwoman Comstock. Thank you, and I now recognize Ms. 
Bonamici for five minutes.
    Ms. Bonamici. Thank you, Madam Chair.
    Before I begin, I want to recognize a member of the 
audience, Physics Professor Michael Raymer, a University of 
Oregon professor, Dr. Raymer received tenure on the faculty at 
the Institute of Optics at the University of Rochester and he 
moved to the University of Oregon, my alma mater, in 1988 and 
served as the Founding Director of the Oregon Center for 
Optics, now the Center for Optical Molecular and Quantum 
Science. Dr. Raymer, thank you for joining us today.
    I want to start by joining the comments that many have made 
about the concerns about budget cuts. I also wanted to thank 
Chair Comstock for mentioning the importance of leadership, and 
we're all talking about the 2016 report that was done of course 
with the leadership of Dr. Holdren and others in the White 
House Office of Science and Technology. OSTP has now been 
vacant at the top position for the longest time since it was 
established in 1976 with a fraction of its staff that was there 
at the time of the 2016 report. So I want to point that out, 
that that's critical to have that leadership and that position.
    I also want to respond to my colleague's comments about 
STEAM. As the founder and co-chair of the bipartisan 
Congressional STEAM Caucus, I don't want to use too much of my 
time but just to emphasize that STEAM does not divert funding. 
It enhances STEM education by making sure that there's 
creativity and innovation in the educational process, and just 
as a point, the Nobel laureates in sciences are much more 
likely to be engaged in arts and crafts in their spare time. 
STEAM enhances STEM learning. It does not take away from the 
funding. What's taking away from the funding is the budget cuts 
that are proposed by the Administration.
    I also wanted to follow up on the point that Chair Comstock 
made about education and workforce and the gaps in that, and I 
know the panel has addressed that, but it was an important 
topic in the 2016 report. One of the things that as a member of 
the Education Committee, I want to emphasize is the importance 
of college affordability and accessibility because a lot of the 
workforce that we could rely on to solve some of these problems 
and to be leaders in this area are finding challenges with not 
only college affordability but many of them may be DC. 
recipients, so immigration reform and college affordability are 
also important to solving these issues because we know that 
there are gaps.
    So I'm going to ask all the panelists how should quantum 
computing change the way we think about and plan for 
cybersecurity? It's something that we talk about a lot here in 
this Committee and in Congress. Will we have--right now we have 
quantum encryption in place for existing communications and 
financial networks before quantum computers upend our current 
system of public key encryption? In other words, do you expect 
that quantum computers will create hack-proof replacements? Can 
you address that? And I'll ask each of the panelists, and then 
I do have another question as well.
    Dr. Williams. So at NIST, we've already embarked on the 
path of trying to find algorithms that we can replace our 
current public key infrastructure with that will be quantum 
resistant. This is being taken seriously because we know that 
it is essential to have it, so we believe that it will happen.
    With regard to the broader cyber theme, there are other 
ways that this technology helps. Again, very good clock and 
good timing can actually increase the robustness of our 
networks, like with almost all kind of technologies that are 
both quantum takes and it gives, and it's about learning to 
understand how we can use the technology to make our systems 
more robust as well as providing quantum-resistant algorithms 
to replace current public key infrastructure.
    Ms. Bonamici. Thank you.
    Dr. Kurose or Dr. Binkley, do you want to add to that on 
the cybersecurity issue?
    Dr. Kurose. I would just say that the challenge of 
postquantum encryption is a very active research area now, and 
there are a lot of space methods that some of the community are 
coalescing around, but I think you ask, is there a guarantee 
right now that they're going to be resistant? I don't think the 
answer to that is actually known yet, and that's a very active 
research area.
    Ms. Bonamici. Dr. Binkley?
    Dr. Binkley. At the Department of Energy, we're not 
involved in any cryptologic or cryptanalysis type of research 
so it's not really our lane. But we are very interested in 
what's going to happen with quantum networking. There are 
definite possibilities in the future where quantum networking 
will have impacts on science-type activities. We do operate the 
largest high-capacity network for science in the nation today, 
and we are very interested in how that will evolve in the 
future in light of quantum technologies.
    Ms. Bonamici. Thank you. And briefly, many of you mentioned 
the importance of the private investment in research, and Dr. 
Williams, you even said we're increasingly dependent on 
significant investments from U.S. technology giants and major 
defense companies, but do you all agree that robust federal 
investment in fundamental and basic research is critical to the 
development in the private sector as well??
    Dr. Williams. Yes.
    Ms. Bonamici. Dr. Kurose?
    Dr. Kurose. I think yes, and I think also if you were to go 
to those technology giants and say is that important, they 
would also all say yes.
    Ms. Bonamici. Do you agree, Dr. Binkley?
    Dr. Binkley. Yes, and I think also active partnerships 
between government research organizations like NSF, NIST and 
DOE with their counterpart--counterparts in the commercial 
sector are really important. That's actually proven very 
successful in the exascale program over the last seven years.
    Ms. Bonamici. Thank you, Madam Chair. I yield back.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Hultgren for five minutes.
    Mr. Hultgren. Thank you, Chairwoman. Thank you all for 
being here. I appreciate your work, and appreciate you spending 
time with us today.
    Dr. Binkley, I wonder if I could address my first question 
to you. I wonder if you could talk briefly about the work 
across the Department that's being done in quantum space, not 
just in ASCR. I know Fermilab, which is in my area, is involved 
in things like the Chicago Quantum Exchange as well as IMQ Net 
with AT&T, Cal Tech and the exchange to establish the first 
nodes of a quantum internet. Can you talk about the impact this 
work will have throughout our scientific ecosystem and how are 
the different programs like HEP and the Office of Science 
working to make sure that this happens?
    Dr. Binkley. So we're viewing quantum in the broad sense 
within the Office of Science. We do think of it as quantum 
information science, which does contain some aspects--which 
does contain quantum computing. So I'm not going to spend a lot 
of time dwelling on the ACSR aspects of it, but we do see very, 
very strong programs already in existence and that need to 
evolve into stronger programs in the basic energy sciences area 
that are aimed at quantum materials that could be used in 
fabricating new types of qubits, for example. We also see the 
potential for quantum-based technologies for sensors and 
detectors that could be used in high-energy-physics 
experiments. It's possible to use concepts like quantum 
squeezing to improve the sensitivity of certain types of 
detectors. All of these are very active areas of research right 
now within the entire breadth of Office of Science programs.
    Quantum networking, which I mentioned a moment ago, is 
something also that I think deserves attention. In summary, 
within the Office of Science we see opportunities across at 
least five of our six programs for quantum science and quantum 
technologies to make impacts on the physical sciences. Again, 
our emphasis is really on the physical sciences here.
    Mr. Hultgren. Thanks.
    Dr. Kurose, I wonder if I could address to you, I 
understand that for QIS, the system of algorithms and standards 
would need to be rebuilt from scratch. I wonder if you could 
give us an idea of how large an undertaking this is. Is it fair 
to say this area of research cannot be helped along by 
classical computing methods or do investments in exascale 
computing support quantum computing in any way?
    Dr. Kurose. Well, first let me address the question 
specifically with respect to cybersecurity because there the 
real challenge is that quantum computers will be able to do the 
kind of factoring of large numbers into prime numbers which are 
sort of at the key of the RSA encryption algorithms that Member 
Lipinski was talking about in his remarks. So from a security 
standpoint, it's the capabilities of a quantum computer to do 
something that a digital computer cannot do in any reasonable 
amount of time, which is the real challenge there, and that's 
why new cryptographic algorithms, the postquantum algorithms 
that are resistant to having quantum computing, that's why 
there's so much focus on that right now.
    With respect to exascale, one thing maybe I'd like to 
emphasize is that quantum again won't be a panacea, won't solve 
all problems in computation, and as Dr. Binkley has pointed 
out, there are problems that are not well suited to quantum 
solutions and there we're going to need supercomputers, we're 
going to need exascale for the kinds of national 
competitiveness and to push forward science and engineering 
research. So it's not an either/or, but an and; and both 
absolutely need to progress.
    Mr. Hultgren. Great. Thank you. I wonder in my last minute 
here, Dr. Binkley and Dr. Kurose, what will DOE and NSF need to 
do to prepare the next generation of researchers and 
programmers to be able to work with quantum machines? Our 
coding now, as I understand it, is still based on the original 
linear models from which we started out with punch cards. How 
long will it take to maximize the effectiveness of these 
machines and make sure that people are ready to maximize?
    Dr. Binkley. So I think the way to start that process is to 
begin to develop and deploy testbed computers, which is one of 
the things that we and NSF have talked about doing. It's become 
clear in our advisory panels and other advice bodies that we 
use that getting to where researchers have hands-on access to 
actual workable systems, even if they're very small, is what's 
necessary to allow people to begin to formulate ideas that then 
can lead to algorithms and computational methods.
    If you look back at the history of computing, when digital 
computers first came out in the late 1940s, early 1950s, they 
were very, very limited in capability, especially compared to 
today's computers, and yet having them in the hands of the 
research community is one of the key factors in accelerating 
the adaptation of that technology and the development of 
algorithms and methods.
    Mr. Hultgren. My time's expired. We may follow up, if 
that's all right, in writing, if that's okay? I yield back.
    Chairwoman Comstock. I now recognize Mr. McNerney for five 
minutes.
    Mr. McNerney. Well, I thank the Chair and I thank the 
witnesses this morning.
    It sounds to me like QIS is a fairly broad subject, and 
quantum computing is one small part of that. Now, one of the 
things about some of these physics challenges is that there's 
areas that seem like they're going to be solved in 15 years and 
it's always going to be 15 years. Is quantum computing one of 
those areas that we're going to be struggling with 15 years 
from now with the same sort of vast misunderstanding or not 
understanding that we do today? Dr. Kurose?
    Dr. Kurose. Well, if you'd asked me that question five 
years or ago or maybe even three years ago, I might have said 
yeah, that could be the case, but I think now that you see 
smaller-scale quantum computing being available, In the next 
panel you'll have Chris Monroe. Who has a computer--a quantum 
computing device at the University of Maryland. You'll have 
IBM, who's put their quantum computing device online. It's 
becoming real. It's not becoming real yet at the scale of the 
number of qubits and the size of the computation that could 
pose a threat to cracking RSA, for example, but we've made a 
real quantum leap, if you will, from five years ago, to today, 
to actually having these devices and making these devices 
available to folks.
    Mr. McNerney. So we're going to be seeing application of 
QIS all over the place, it sounds like. What are some of the 
inherent scientific and technical challenges that we're going 
to be seeing or that we're going to have to overcome. Dr. 
Williams?
    Dr. Williams. So I think there are a number of challenges. 
I mean, again, it's speaking back toward NIST mission. Small 
processors can allow us to build several kinds of devices that 
would--including extremely low-noise amplifiers and other 
things that could provide signal in places where you can get no 
signal because we know how we can play around in the 
amplification world in the quantum level to do things you 
cannot do classically. So I think this technology is going to 
really remake a lot of our modern electronics type thing so 
when you think about computers, I mean, computers are not just 
sitting on your laptop. They're in every game, in every toy and 
almost everything that's in your house. The technological 
challenges of isolating them are hard and yet we know with 
Nitrogen-vacancy centers in diamonds, for example, that we can 
maintain coherence in a quantum system at room temperature. We 
are learning tremendous amounts of new things about where this 
technology is going, and I think this is one of those areas 
where the future, probably the most important discoveries, the 
most important things that will come out of this QIS revolution 
are yet unknown.
    Mr. McNerney. Well, one of the things that we should be 
worried about is the implications on national security and 
national economy. So are we making the kind of investments that 
are necessary to keep control of those two issues as opposed to 
all of a sudden finding ourselves behind the eight ball?
    Dr. Williams. I believe that we are at that inflection 
point where it is essential that we figure out how we convert 
this basic science into the technology because it's the 
technology that basically produces the broad economy that we 
tax and pays for science. So we need to ensure that we own the 
space, and in a ``flat world,'' this is a far more difficult 
game than it was at the end of World War II where we won the 
advantages of the transistor and so now we must compete 
globally with other nations to exploit the science and turn it 
into technology.
    Mr. McNerney. Is it going to be more of a cooperative 
international effort or a competitive international effort, Dr. 
Binkley?
    Dr. Binkley. I think it's actually going to be a 
combination of both. I mean, there are certain areas where the 
relationship between our researchers and their counterparts in 
foreign countries is very collegial and very collaborative but 
there are also areas where it's very competitive, and in the 
areas related to quantum science and technology, I think we're 
going to see a more competitive nature when it comes to 
international dealings because of the economic forces that will 
come to bear through the technologies that are ultimately 
developed.
    That said, I think there still be impacts in areas like 
high-energy physics and nuclear physics where quantum detector 
technologies will accelerate the pace of science and there 
it'll be more collegial and collaborative.
    Mr. McNerney. Thank you. I yield back.
    Chairwoman Comstock. I now recognize Mr. Rohrabacher for 
five minutes.
    Mr. Rohrabacher. Madam Chairman, thank you very much for 
your leadership in calling this hearing today and organizing 
it. We appreciate that.
    Let me just note that when I got here years ago, 30 years 
ago now, there was a big debate as to whether or not we should 
put $600 million into the development of picture tubes, and we 
were falling behind. Come to find out, of course, of that $600 
million, a significant portion of that would be used in 
developing analog picture tubes at a time when digital 
technology was sweeping into that industry. So not all the 
times when you spend money and you're saying it's for a 
specific end are you achieving the goal that you want to 
achieve. In fact, sometimes cuts force people to make priority 
decisions, for example, not putting money into analog old 
technology rather than into digital technology. And if you 
never terminate the least effective research that you're doing, 
you will drag down the most productive research that you're 
doing. So the fact that there have been responsible cuts to 
various programs is something that will actually, I think, make 
our scientific community more effective rather than less 
effective.
    And when it comes down to this issue, let me just note this 
has been a terrific hearing. I want to thank the witnesses. I 
have a better understanding now of the challenge that we face. 
It sounds like to me, and let me get the pronunciation of Jim 
Kurose?
    Dr. Kurose. Kurose.
    Mr. Rohrabacher. Kurose. You noted that we were actually 
ahead in the basic science and we are ahead in that but what it 
sounds like to me, Madam Chairman, is that we are not really 
making the transition from the basic science into applied 
science in a way that America will remain a leader in this 
effort. Is there something that we can do? Now, applied science 
is just another word, I guess, for applied for defense, et 
cetera, but also commercialization is part of what we talk 
about in terms of applied science. When we didn't have the 
money for NASA to spend all the money we needed for various 
space transportation systems, we turned to the private sector 
and now we have--with the commercial legislation that we 
passed, we have a very vibrant and important investment in 
space transportation coming out of our private sector.
    Now, is there something that we can do? I mean, okay, I'm 
the author of the Commercial Space Act so I'm bragging about 
that, but is there something we can do to make the applied go 
from the basic to the applied and incentivize the private 
sector to invest money in the applied scientific approach to 
this issue, Dr. Kurose?
    Dr. Kurose. Well, thank you for the question, and in my 
earlier remarks I actually talked about partnerships between 
industry and the National Science Foundation and the research 
community, and so really what you're talking about is use-
inspired research, and I think one of the advantages of having 
that collaboration between industry, academia and the federal 
government is that we are able to bring in use-inspired 
research challenges into the research. That's not a replacement 
for fundamental research but it is important.
    Mr. Rohrabacher. Well, it's utilizing fundamental research.
    Dr. Kurose. It's utilizing fundamental research. Actually, 
new research problems can be suggested by the use and by the 
development.
    Mr. Rohrabacher. Well, I would hope that we can come up 
with some specific ideas how to encourage these private sector 
companies, which will utilize the information to actually 
invest in that transition between basic and utilization.
    Do any other witnesses have any thoughts on that?
    Dr. Williams. So I agree with Dr. Kurose. Partnerships are 
important. Other things that can help are things like other 
transaction authority that would allow us to better interact 
between academia, industry and the private sector and the 
government because there are a lot of restrictions around the 
IP that creates problems, and OTA will give us some flexibility 
there.
    Mr. Rohrabacher. How about the DOE? Does it have some ideas 
on that?
    Dr. Binkley. Well, I come back to the general concept that 
Dr. Kurose mentioned and also Dr. Williams in that effective 
partnerships between government research organizations and 
private companies are a very good way to go.
    Mr. Rohrabacher. Well, we've got to make it profitable for 
people to do that.
    Dr. Binkley. Correct. But that has succeeded in several 
areas in Office of Science programs, and it serves to bring 
together researchers from essentially the commercial 
environment and the government-funded side, and often it's 
beneficial enough to the company that they put their own 
resources into that as well. So I think that's one of the most 
effective ways of accelerating the transition of basic science 
into commercial applications.
    Mr. Rohrabacher. Thank you very much, and thank you, Madam 
Chairman.
    Chairwoman Comstock. I now recognize Mr. Tonko for five 
minutes.
    Mr. Tonko. Thank you, Madam Chair. Thank you to all our 
witnesses.
    Quantum technology is an exciting frontier, and I'm proud 
of the advances happening in my home State of New York and at 
universities in my region throughout the capital district. I 
continue to hear from universities that want to partner with 
other universities and industry and federal endeavors in 
quantum technology. I hope that we continue to look toward the 
future and foster opportunities for universities and industry 
to grow this critical field. It obviously begins with basic 
research and so I am concerned that the 2018 budget proposed by 
President Trump includes an 11 percent cut, as we heard 
earlier, to NSF, a 6.6 percent cut to quantum information 
science at NIST, and a 16 percent cut to DOE's Basic Energy 
Sciences program where Dr. Binkley just testified much of their 
quantum research is supported. So it's got to set a tone. I 
believe government sets a tone and provides for basic research 
and then hopefully move forward, and in light of the 
international scale and what is happening, it's very 
problematic to see these proposals coming from our President.
    The National Science and Technology Council Interagency 
Working Group on Quantum Information Science has done crucial 
initial work to scope and prioritize the research in various 
efforts. Can any of you provide an update on the Interagency 
Working Group?
    Dr. Williams. The Interagency Working Group's charter has 
been extended and continues to meet. In fact, I believe we have 
a meeting on Thursday this week. That group is trying to come 
up with a playbook of possible paths forward given different 
scenarios. I think we see ourselves as very collaborative 
across the whole of government. We've been working close 
together for years. We all see that this is vital to our 
mission space. This includes not only the agencies sitting at 
the table but many of the agencies that are part of the DOD and 
the intelligence community as well.
    Mr. Tonko. Thank you. All three of your agencies fund 
research into quantum materials as a fundamental underpinning 
for a quantum technology revolution. Can you describe in lay 
terms what quantum materials are and the different aspects of 
quantum materials research that each of your agencies is 
supporting? Dr. Williams?
    Dr. Williams. So quantum materials are materials that have 
specific properties. In some cases, because they are 1 or 2D 
materials and the various special kinds of films, and in some 
cases it's because they have specific properties. So some of 
these are superconducting materials. Some of them are ultrapure 
silicon so that we can get rid of the nuclear spins that come, 
isotopically pure silicon so silicon has three isotopes, and 
those nuclear spins cause problems in quantum computing. So we 
basically invest in a broad range of different materials that 
are necessary to support this technology, to create sensors and 
single proton detectors that have both the properties that they 
can sense a single photon, reset themselves, and have very high 
quantum efficiency, which means again putting different types 
of materials stacked on top of them. So there's a lot of 
different types of processing going on to do these things so 
it's a very broad field.
    Mr. Tonko. Thank you.
    Dr. Kurose?
    Dr. Kurose. I would just add that at the National Science 
Foundation, we don't fund any intramural research; we fund 
academic research across the United States in many different 
areas, so 94 percent of the funding that comes to the National 
Science Foundation goes out to researchers in academia. How 
funding is allocated to make the hard decisions that Member 
Rohrabacher mentioned, that's done through merit review, so the 
scientists come in and provide advice to the National Science 
Foundation about what the most promising research activities 
are among the----
    Mr. Tonko. So it seems like a very critical area of federal 
investment.
    And Dr. Binkley, please?
    Dr. Binkley. So following Dr. Kurose's remarks, the 
Department of Energy research activities are funded in both 
universities and in DOE National Laboratories and again through 
a very rigorous peer review process. In our materials area, 
we're really focused on what we call functional materials, 
materials that are essentially designed to achieve certain 
functions using quantum mechanical principles to begin with. We 
also focus our research heavily in the characterization of 
materials. We have tools and diagnostic methods for accurately 
characterizing materials. Dr. Williams mentioned pure isotopes 
of certain materials. The DOE research is also focused on 
methods for production of certain isotopes. In all cases, we 
coordinate our research activities in quantum materials across 
our respective organizations to avoid any duplication of 
effort.
    Mr. Tonko. Thank you. I thank all three of our witnesses, 
and with that, Madam Chair, I yield back.
    Chairwoman Comstock. Okay. I now recognize Mr. Foster for 
five minutes.
    Mr. Foster. Thank you, Madam Chair, and thank you to our 
witnesses.
    You know, I have to say I'm not surprised at the incredible 
computing power that's available in the physical universe. I 
remember, you know, back learning quantum field theory at 
Harvard more than 30 years old. They told us well, at every 
point in space time there was infinite--an operator, an 
infinite dimension matrix, and these were propagated through 
time with a set of equations that are called the standard 
model. And just when you think about the incredible computing 
power that happens in the universe, you know, it's not 
surprising that there's power out there.
    What I am blown away with is the fact that over the last 30 
years, we have found ways to tap into that computing power, and 
that these--you know, it's just really impressive.
    I was also very interested in the claim that you can 
actually preserve quantum coherence at room temperature, which 
is something I want to follow up with because that means that 
there may be a possibility of actually having quantum computers 
in your cell phone whereas previously, you know, the scenario 
that people were looking at were giant supercomputer front ends 
to small boxes with cryogenics in it to provide cloud-based 
access so we may actually--if that is actually true, that could 
change, you know, the way we actually deploy this.
    Now, one of the bright spots of bipartisan agreement in 
this--on this Committee and in Congress is about robust funding 
for exascale computing, and so Dr. Binkley, could you discuss 
how the next generation of exascale computing systems such as 
the one at Argonne National Laboratory is working to bring 
online in 2021 could synergize and elevate a robust quantum 
computing technology ecosystem?
    Dr. Binkley. Yeah, I can cite a couple of examples of where 
that occurs. One is that obviously there's a tremendous search 
on for quantum materials that can be used in cubit technologies 
and so a lot of the simulation capabilities that exist in our 
material science and chemical sciences communities can be 
brought to bear on that problem.
    Another area that is under active exploration is that you 
can simulate quantum computers on classical computers, and in 
fact, with the largest computers we have today, we can simulate 
quantum computers that contain up to about 40 or so aubits, and 
that actually gives us a way to begin to simulate algorithms 
and do algorithm development, and that will be accelerated when 
we go to the exascale-class computing.
    Also, the exascale computing is giving us the ability to 
look deeper into particle physics and nuclear physics 
phenomena, and that'll give us insights on quantum algorithms 
that can be developed in those areas as well.
    Mr. Foster. Thank you. And I guess on the next panel of 
witnesses we're going to see some discussion of what the key 
skills that you need to get the workforce that can actually do 
this, and I guess the list that appeared in the written 
testimony were cryogenics, FPGA programming, superconducting 
materials development, and microwave engineering. You know, 
that sounds pretty much like a description of what I did during 
my 25 years at Fermi National Accelerator Lab. I think 
somewhere on my laptop back home are hundreds of pages of FPGA 
code, cryogenic systems calculations, you know, designs of 
high-power phase shifters for microwave applications and so on.
    And so it strikes me that the national labs are really well 
positioned to play a key role here, and so I guess the question 
for Dr. Binkley, how exactly is the Department of Energy using 
the capabilities of Argonne Lab and Fermilab to advance quantum 
science to hopefully stay ahead of the competition here?
    Dr. Binkley. So that's a very good question, and so 
presently, we're really at the very beginning of that process, 
and as I mentioned a little bit earlier, the first step is to 
develop and deploy a few testbed computer systems at various of 
our national laboratories so that researchers can begin to do 
systematic development of algorithms and computational 
approaches to problems. And then, you know, later on, depending 
on where the field of quantum computing goes, there may be 
opportunities where DOE technologies can be applied in that 
path as well. But right now our focus is really on the very, 
very early stage development of quantum computing algorithms 
using testbeds and also looking at quantum simulation as a 
technique for looking at molecular problems.
    Mr. Foster. Thank you. And I guess my last question is for 
Dr. Kurose and Dr. Williams. There's been two big areas, it 
seems to me, one of which is the whole encryption, you know, 
and communication. The other one is just using this as a 
compute engine for things like, protean folding and all these 
really intractable problems that we're facing, so how do you 
see---in one of these areas, it's probably okay to have open 
communications with the entire world. The other one just for 
national defense reasons has to be very closely held. And so 
how do you handle the communications between, you know, the 
dark side that has to remain dark and you know, the purely 
scientific side that maybe shouldn't?
    Dr. Kurose. It's a great question, and I'd say that the 
National Science Foundation funds open basic fundamental 
scientific research, and so, if you were to look at prequantum 
encryption algorithms, there's NSF funding involved in that. 
Other agencies are involved when you talk about the classified 
space and there are other opportunities there, but at the 
National Science Foundation, the work funded is open.
    Mr. Foster. Do you feel there's adequate communication or 
is that just a problem you run into all the time?
    Dr. Kurose. Communication among----
    Mr. Foster. Between, you know, for example, your scientists 
that work, you know, in the unclassified scientific area and 
have good visibility into the technologies that are being 
developed with the nontrivial amounts of money we're putting 
into the classified sector, or is that a problem where you end 
up inventing, you know, the same device in two different spaces 
with a lot of inefficiency there.
    Dr. Kurose. Golly. Given I don't have a clearance, it's a 
little bit hard for me to comment on both sides at the same 
time. Maybe I could just--if I could take 20 seconds just to 
tell you a story that during World War II, some of the 
fundamentals being RSA encryption were done in the dark at the 
same time in England, and it was really shocking to imagine 
that 2,000 years of how we were doing encryption was turned on 
its head by RSA and the algorithms there, and yet unbeknownst 
to the team here in the United States, there was another team 
in England doing the same thing, and so sometimes there are 
ideas that are in the area, really, really smart people put 
together these ideas and can come up with not exactly the same 
but some really similar super, super creative ideas.
    Mr. Foster. I guess I've exceeded my time.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Beyer for five minutes.
    Mr. Beyer. Thank you, Madam Chair, very much. Thank you all 
for being here today. It's not every day you get the 
opportunity to make a Schrodinger's cat joke, although it is at 
the same time, right?
    Anyway, I want to begin by pushing back a little back on my 
good friend Mr. Rohrabacher about agreeing that yes, it does 
make sense to abandon unproductive research efforts but then I 
deeply believe the money should be redirected to other more 
productive research efforts. At the end of the day, less 
research is still less research, and that's not good for any of 
us.
    Dr. Binkley, you're Department of Energy. I've been 
impressed today how in all the talk about QIS, there's been so 
little discussion about its impact on energy, and I bring that 
up because it seems to be half of what we talk about on Capitol 
Hill, you know, fossil fuels, climate change, a lot of nuclear 
physics here. You did mention photosynthesis and the impact 
there, and sort of a passing reference to being able to explore 
gas and oil better with quantum technology, but can you look 
at--can you talk a little bit about the larger energy picture 
and what quantum physics may bring us?
    Dr. Binkley. Yes. Let's see. To begin with, there are many, 
many processes for producing energy from various types of 
fuels. A lot of those processes depend on chemical reactions, 
and in the case of chemical reactions, quantum computing will 
enable much speedier, much more accurate calculations and 
simulations to be done, which will have impacts on those 
systems. If you consider also the effective utilization of 
biofuels, a lot of the problems that we face in understanding 
biofuels and bioproducts or biomanufacturing, for that matter, 
ultimately become problems in chemical reactions trying to 
determine activation energies and things like that. Being able 
to do more accurate, more thorough calculations using quantum 
computing-based techniques will also accelerate those processes 
as well. Essentially, any problem that is either materials or 
chemical sciences is going to become much more tractable with 
quantum computing at it becomes available in whatever time 
frame. I would expect that to have direct impacts on the 
energy----
    Mr. Beyer. It sounds like we need to take the all-of-the-
above philosophy and add quantum physics to that.
    Dr. Williams, you talked about quantum teleportation and 
entanglement, the whole idea of action at distance which you 
know Einstein hated, and you talked about the Chinese have now 
done it over 1,200 kilometers. We also--our Committee is 
Science, Space, and Technology. Do you see this --so we're now 
violating the sort of absolute speed of light is the limit with 
entanglement. Are there ways for us to explore deep space to 
break the barriers using quantum teleportation?
    Dr. Williams. So break barriers in some ways but not in 
ones that violate any of the laws of physics. Again, on the 
quantum teleportation, in order to actually extract the 
information, you have to also have a classical channel so you 
are causally limited in order to exploit it. However, again in 
deep space exploration, the use of entanglement and everything 
else can give us a couple of things--super dense coding--that 
is ways of packing more information into a small number of 
bits. Again, these amplifiers I've talked about, they can come 
back in because again, that spacecraft is now so far away that 
its signal takes a long time but its signal also goes out in a 
very large area so only a small piece of the signal comes back 
to Earth. Can I build an amplifier that allows me to pick up 
that extraordinarily weak signal, and this technology allows 
that. So there's numerous reasons that to agencies like NASA 
and deep space exploration that this technology will be crucial 
to helping us further explore and understand the basic 
principles of the universe.
    Mr. Beyer. Thank you very much.
    Dr. Binkley, very quickly, can you tell us what quantum 
gravity is?
    Dr. Binkley. Well, there's ultimately the question of 
merging quantum theory with the general theory of relativity, 
and it's thought that quantum gravity can be explained 
ultimately in those terms. How that'll affect--I mean, that's 
not really a quantum computing problem per se but it's a QIS, a 
quantum information science problem. It's a challenge in the 
area of quantum information science. It's an unsolved problem 
at this point.
    Mr. Beyer. Okay. So it's--great. Thank you very much.
    Mr. Chair--Madam Chair, I yield back.
    Chairwoman Comstock. I thank the witnesses for their 
testimony and the members for their questions. You obviously 
have a lot of interested Members here today. We will now invite 
our second panel up to the table, and once we get everyone 
there, we can welcome and introduce our second panel of 
witnesses.
    Okay. Great. We'll move forward here on our second panel. 
Thank you for your patience. Now, our fourth witness today is 
Dr. Scott Crowder, Chief Technical Officer and Vice President, 
Quantum Computing, Technical Strategy and Transformation for 
IBM Systems. In this role, his responsibilities include leading 
the commercialization effort for quantum computers and driving 
the strategic direction across the hardware- and software-
defined systems portfolio, among other things.
    He holds both a Bachelor of Arts degree and a Bachelor of 
Ccience degree in international relations and electrical 
engineering from Brown University as well as a Master of Arts 
in economics from Stanford. He also holds a master of science 
and Ph.D. in electrical engineering from Stanford.
    Our fifth witness today is Dr. Chris Monroe, Distinguished 
University Professor and Bice Zorn Professor in the Department 
of Physics at the University of Maryland. He's also founder and 
chief scientist at IonQ, Incorporated, and a Fellow of the 
Joint Quantum Institute between the University of Maryland, 
NIST, and the National Security Agency. Additionally, he's a 
Fellow of the Center for Quantum Information and Computer 
Science at the University of Maryland, NIST, and NSA.
    He received his undergraduate degree from MIT and earned 
his Ph.D. in physics from the University of Colorado at 
Boulder, studying with Carl Wieman and Eric Cornell. His work 
paved the way toward the achievement of Bose-Einstein 
condensation in 1995 and the Nobel Prize in Physics for Wieman 
and Cornell in 2001.
    He then was a staff physicist at NIST in the group of David 
Wineland, leading the team that demonstrated the first quantum 
logic gate in any physical system. Based on this work, Wineland 
was awarded the Nobel Prize in Physics in 2012. In 2000, Dr. 
Monroe became Professor of Physics and Electrical Engineering 
at the University of Michigan, where he pioneered the use of 
single photons as a quantum conduit between isolated atoms and 
demonstrated the first atom trip integrated on a semiconductor 
chip. From 2006 to 2007, he was the Director of the National 
Science Foundation's Ultrafast Optics Center at the University 
of Michigan.
    And now I will recognize Mr. Lipinski to introduce our 
third witness.
    Mr. Lipinski. Thank you. Our third witness is Dr. Supratik 
Guha who is the Director of the Nanosciences and Technology 
Division in Center for Nanoscale Materials at Argonne National 
Laboratory and a professor at the Institute for Molecular 
Engineering at the University of Chicago.
    Dr. Guha came to Argonne in 2015 after spending 20 years at 
IBM Research where he served as the Director of Physical 
Sciences. At IBM, Dr. Guha pioneered the research that led to 
IBM's high dielectric constant metal gate transistor, one of 
the most significant developments in silicon microelectronics 
technology. He was also responsible for significantly expanding 
the size and strategic initiative of IBM's quantum computing 
group. Dr. Guha is a member of the National Academy of 
Engineering and a Fellow of the Materials Research Society in 
the American Physical Society. He's one of only a few 
scientists who has been a tenured professor, an executive at a 
major multi-national company, and the division at a major 
national laboratory. He received his Ph.D. in material science 
in 1991 from the University of Southern California and B. Tech 
in 1985 from the Indian Institute of Technology. So welcome, 
Dr. Guha.
    Chairwoman Comstock. Okay. And I now recognize Dr. Crowder 
for five minutes to present his testimony.

                TESTIMONY OF DR. SCOTT CROWDER,

          VICE PRESIDENT AND CHIEF TECHNOLOGY OFFICER

                     FOR QUANTUM COMPUTING,

                       IBM SYSTEMS GROUP

    Dr. Crowder. Chairwoman Comstock, Chairman Weber, 
distinguished Members of the Subcommittees, thank you for this 
opportunity to testify before you today. I am here representing 
IBM where I lead the company's IBM Q program whose goal is to 
provide quantum computing access to industry and research 
institutions for business and science.
    We tend to think classical computers can solve any problem 
if they are just big or fast enough, but that is not the case. 
There are a whole class of exponential problems that classical 
computers are not good at and never really will be. One example 
is simulating the behavior of atoms and molecules. 
Unfortunately, for anything beyond very small molecules, this 
task lies far beyond the capacity of conventional computers. 
Accurately simulating relatively simple molecule like caffeine 
would require a classical computer 1/10th the size of planet 
Earth. With better simulation, we could do amazing things. We 
could develop new life-saving drugs or manufacture incredibly 
light and durable new materials for airplanes.
    When I talk to leading U.S. companies about their unsolved 
problems, the problems, that if solved, could bring them huge 
economic benefit and competitive advantage, these exponential 
problems turn up everywhere. They are problems such as 
developing new materials at a chemical company, understanding 
aging of batteries at an automotive company, optimizing the 
supply chain at a logistics company, and hedging risk and 
commodity prices at a consumer goods company. What they have in 
common is they are exponential problems that have real business 
value if solved.
    Quantum computing holds the promise to solve these types of 
real problems and bring real commercial value to U.S. industry. 
It is a radically different computing paradigm that could 
launch a new age of human discovery. IBM has built and made 
available via cloud access real quantum computers of 5 and 16 
qubits for education and exploration. These IBM Q experience 
systems were the only freely available quantum computing 
resource until this month when a Chinese institution made a 
smaller, 4 qubit system available.
    IBM has also announced IBM Q, an initiative to build the 
first universal quantum computing systems commercially 
available to industry and research partners. Access to 17 qubit 
systems is planned for later this year with growth to 50 qubit 
systems in the not-too-distant future. These systems are 
located in New York and securely accessed by IBM Q partners via 
the cloud.
    When one examines the depth of the commitment other 
countries are making in quantum computing, our belief is the 
U.S. Government investment in driving this critical technology 
is not sufficient to stay competitive.
    The European Commission announced last year that it would 
create a 1 billion Euro research effort called the quantum 
technology flagship. According to estimates by McKenzie, the 
European Union has twice the number of quantum researchers as 
the United States and dedicates 1-1/2 times the funding. China 
has also increased the national prioritization of quantum 
technology. That same McKenzie study showed China has more 
quantum researchers than the U.S. In China, government and 
industry are working cooperatively. The Chinese Academy of 
Sciences and Alibaba jointly established the Alibaba Quantum 
Computing Lab with clearly defined goals to build 50-qubit and 
larger systems.
    Given the growing competition, what can the U.S. do to 
maintain its quantum leadership? We believe success will 
require partnerships between industry, academia, and government 
to drive the basic research, create talent and skills required, 
and help U.S. industry explore how this new technology can be 
used for economic advantage. We support and commend the actions 
of the U.S. Department of Energy's Office of Science to create 
quantum computing test beds. These efforts should be 
significantly expanded to ensure we are putting the most 
advanced quantum computers in the hands of U.S. research 
scientists and early industry adopters. This should include 
early stage commercial quantum computers from not just IBM but 
from other industry participants to ensure exploration of 
multiple underlying quantum technologies.
    In order to ensure continued American leadership in 
fundamental quantum technology, the U.S. Government should 
partner with academic institutions to increase funding for 
basic research in alternative quantum technologies and quantum 
algorithms.
    Finally, we must do more together to drive talent 
development in quantum computing in this country. Students in 
the U.S. from over 500 academic institutions are using the IBM 
Q experience and the related quantum software development kit 
for education and skill development. But the efforts of 
industry are not enough to develop the necessary skills in 
quantum information science. Government at the federal and 
state levels must work with industry and academia to create 
both regional centers of excellence for quantum computing and 
topical centers of excellence for quantum-based solutions in 
areas such as computational chemistry and optimization.
    You're right to focus on U.S. quantum leadership given its 
critical importance to our national competitiveness and 
security. Working together, we can ensure that the U.S. 
continues to lead the way in quantum computing.
    Thank you for the opportunity to provide testimony on this 
very important topic.
    [The prepared statement of Dr. Crowder follows:]
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    Chairwoman Comstock. I now recognize Dr. Monroe for five 
minutes.

              TESTIMONY OF DR. CHRISTOPHER MONROE,

              DISTINGUISHED UNIVERSITY PROFESSOR &

                      BICE ZORN PROFESSOR,

                     DEPARTMENT OF PHYSICS,

                    UNIVERSITY OF MARYLAND;

            FOUNDER AND CHIEF SCIENTIST, IONQ, INC.

    Dr. Monroe. Thank you, Madam Chairwoman, and the rest of 
the Committee for the opportunity to be here today to testify.
    As a quantum physicist and professor at the University of 
Maryland and a co-founder and chief scientist at a small 
company, I have over two decades of experience in the field of 
quantum technology from both the academic and industrial 
viewpoints.
    I'm testifying here today on behalf of the National 
Photonics Initiative which is a collaborative alliance among 
industry, academic, and government institutes established in 
2013 to raise awareness of photonics, that is, the study and 
application of light at its quantum level, also to coordinate 
U.S. industry, government, and academia to advance photonics-
driven fields critical to maintaining U.S. economic 
competitiveness and national security.
    We have outlined a proposed National Quantum Initiative as 
part of the National Photonics Initiative which will provide 
infrastructure for the next generation sensors, networks, and 
quantum computers all based on this quantum technology we've 
heard about today.
    From previous witnesses this morning, we learn that quantum 
devices follow radical rules. These are new rules with which to 
compute and process information. For instance, with merely 100 
atoms, which is a very tiny amount of material, we can store 
more information than is on all of the memory in the world and 
in all the hard drives in all the computers. I bring this up 
because with these radical rules come radical types of hardware 
to do this, and the real trick in developing quantum hardware 
is to isolate it from the environment, and prevent it from 
being measured until we want to measure it at the end of the 
game. And photons, since I'm representing the National 
Photonics Initiative, are the medium that will be used for 
communication of quantum information because light can travel 
large distances without interacting with its environment. It's 
not hard to do that through fiber networks and so forth. A lot 
of the infrastructure, that exists now can be used for quantum 
communication.
    But there's equally radical hardware for quantum memory; 
for instance individual atoms, not just atoms as part of a big 
system but individual atoms, one at a time, that are levitated 
in free space in a vacuum chamber. They may be cold. They may 
be at room temperature. There's all kinds of other hardware. I 
bring this up because with this exotic hardware, there's a 
particular problem in the field now both at academic institutes 
and in industry and that is at universities, we don't build 
things. We don't do engineering. You don't see an airline being 
built at a university. On the other hand, industry doesn't have 
the industrial engineering background. They're vastly growing 
as we heard from my colleague, Dr. Crowder from IBM, and other 
industry players are making a big play in this field. But the 
big challenge is I can hark back to the days when classical 
computers in the '50s and '60s transitioned from vacuum tubes 
to silicon. The early silicon transistor was a big beast, and 
miniaturizing it took the task of a new generation of 
engineers. They weren't the vacuum tube engineers that did 
this. And so we're in a sense missing that critical link 
between research and development.
    We propose the National Quantum Initiative to establish 
several innovation laboratories that will indeed build devices. 
These would be public-private institutes that take advantage of 
the best of both worlds, having embedded industrial researchers 
with young students, maybe in computer science, who don't know 
so much physics and they want to get in this game. The National 
Quantum Initiative will be essential for the U.S. to maintain 
leadership in this field, now and into the future. We've heard 
lots of testimony of our competition abroad. I sit on advisory 
boards in Europe, Canada, also in China, and indeed, their 
coordination is alarming. We've heard multi-billion dollar 
estimates in China, both at the conglomerate Alibaba and also 
the government to build quantum centers.
    A National Quantum Initiative we feel is critical to move 
quantum technology from its current research status to real-
world applications. Such investment would create the 
infrastructure, both physical and human capital needed to 
propel the U.S. into a leadership position in quantum 
technology. This would create vast opportunities for workforce 
creation in this field, economic growth in energy, medicine, 
and security.
    I again thank the committee and its leadership for the 
opportunity to testify today. On behalf of myself and the 
National Photonics Initiative. I look forward to answering your 
questions and working with you and the committee to establish a 
National Quantum Initiative. Thank you.
    [The prepared statement of Dr. Monroe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. Thank you. I now recognize Dr. Guha.

           TESTIMONY OF DR. SUPRATIK GUHA, DIRECTOR,

              NANOSCIENCE AND TECHNOLOGY DIVISION,

                  ARGONNE NATIONAL LABORATORY;

        PROFESSOR, INSTITUTE FOR MOLECULAR ENGINEERING,

                     UNIVERSITY OF CHICAGO

    Dr. Guha. Thank you. Chairman Weber, Chairwoman Comstock, 
Ranking Member Veasey and Ranking Member Lipinski, and Members 
of the Subcommittees, thank you for the opportunity to appear 
before you today to discuss the status and future of quantum 
technologies, as seen from the perspective of the U.S. 
Department of Energy National Laboratories. I am Supratik Guha, 
Director of the Center for Nanoscale Materials facility 
supported by Basic Energy Sciences at the Argonne National 
Laboratory.
    The cost of computing has decreased by about ten orders of 
magnitude in the past 60 years, due to Moore's Law scaling. 
Yet, the basic architecture of the computer has remained 
essentially the same. Recent developments in quantum science 
promise a new computing architecture dramatically different 
from anything that we have used before. Quantum computing today 
is in its early stages. This technology will not replace 
conventional computing machines, but it will offer 
unprecedented speed and efficiency advantages over conventional 
computing in three very important areas. These are in 
cryptography, complex data analytics, and computational quantum 
chemistry. Advances in the latter would change the way we 
invent new materials. If the history of computers is any 
indication, there will likely be many more applications in 
future.
    Subtle effects in quantum mechanics enable a quantum 
computer to probe information space simultaneously rather than 
sequentially, resulting in its vast superiority over classical 
computing. U.S. companies have recently built small quantum 
processors containing a few tenths of quantum bits, the unit 
devices within a quantum computer, but today's state of the art 
is a long way from where we wish to go. Quantum bits are prone 
to errors. At today's level of perfection, we need quantum 
processors containing tens of thousands to a million quantum 
bits. Advances are required in devices in architectures, and 
this will only be as good as the materials upon which these are 
based.
    The history of electronics has shown us that there comes a 
time when massive scale fundamental materials research is 
needed to propel forward initial demonstrations. This was the 
case, for instance, with silicon microelectronics, which gave 
us computing and the Internet. The time for that materials 
ramp-up has arrived for quantum technology. There is not enough 
basic materials research going on today to support the growth 
that is required.
    The needs are numerous. For instance, we need new materials 
for high-quality quantum bits that can operate at room 
temperature for quantum memory and for quantum channels that 
can connect quantum chips.
    Think of a fully integrated quantum processor as a number 
of artificial atoms coupled together that compute and store 
information. New materials hold the key to the ultimate 
development of these components.
    With the increasingly complex nature of today's materials 
research, corporate entities are unable to carry out this basic 
science work like they used to. The task, however, plays into 
the strengths of the Office of Basic Energy Sciences within the 
U.S. Department of Energy and the Department of Energy National 
Laboratories. The Office of Basic Energy Sciences has 
prioritized investments in quantum materials. The National 
Laboratories offer unmatched capabilities, large-scale material 
synthesis, characterization, nanofabrication, and computational 
materials discovery all integrated under one roof. Their large 
user facilities, the Nanoscience Research Centers, light 
sources and the leadership computing facilities, tether 
university-based ecosystems around them. The National Labs and 
their user facilities are well-positioned to be major players 
in the future of quantum research.
    We need to develop an educated workforce that is able to 
engage in quantum mechanics as engineers. Universities 
nationwide have begun responding to this. As an example, the 
University of Chicago has launched one of the first Ph.D. 
programs in quantum engineering. It has also created the 
Chicago Quantum Exchange, a research and educational 
collaboratory with Argonne and Fermi National Laboratories.
    Quantum computing is a long game but one that we cannot 
afford to ignore. Thank you for your time and attention. I 
would be happy to respond to any questions that you might have.
    [The prepared statement of Dr. Guha follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Chairwoman Comstock. I now recognize myself for five 
minutes for questions. And let's see. From the testimony given 
today in both of our panels, we know more about what the United 
States is doing to pursue quantum research and development, and 
we also know that other nations are heavily investing in this, 
in particular the United Kingdom, Netherlands, European Union, 
Australia, Canada, and, of course, China.
    What are the risks to our economy and national security if 
we aren't the leaders in this research, and in particular, in 
quantum information science? For any of you.
    Dr. Monroe. I might begin. Thank you for the question, 
Madam Chairwoman. I think one of the risks I see at the 
university level is students, foreign students. They come here, 
they want to stay here. They want to be where the best is, and 
we have the best. The U.S. is well-acknowledged as having the 
best higher education system in the world. We don't want those 
people leaving, frankly. I think that is a security issue in 
the long run. It's an economic issue. These are highly trained 
and very smart people. We want them here creating economic 
growth here in the U.S.
    Chairwoman Comstock. So stapling the green card to the 
degree might be helpful. Okay. Others?
    Dr. Crowder. Yeah. I think there's two levels of this. One 
is building quantum systems in the U.S. So there's just a 
nascent industry there, both as Chris and I are involved in 
building a system. But there's also having U.S. companies be 
early adopters in leveraging it. So they as U.S. companies get 
the economic benefit and competitive advantage of leveraging 
these technologies earlier. And both of those things rely on 
skill development in this country, fundamentally. If we don't 
develop the skills, we will not be able to execute on them.
    Chairwoman Comstock. Okay. Dr. Guha?
    Dr. Guha. I think the point I would like to make to add to 
my colleagues here is that, you know, we need to double up this 
set of skills because there are, most likely, as yet unknown 
new industries that can be jumpstarted from the science that 
would come out of this, in addition to, you know, to the 
benefits we would have in leading areas of cryptography or 
materials design.
    So it would be extremely important to be able to have 
strong educational, fundamental scientific base in the quantum 
information sciences in the U.S.
    Chairwoman Comstock. Okay. Thank you. And I did want to 
take this opportunity now, since we have a staffer here, Sarah 
Jorgenson. This is her last hearing because she's moving to 
another committee and leaving us. So, I did want to thank her 
for all of her great work, and you got a really exciting, 
interesting hearing for your last hearing. Thank you for your 
leadership on the committee, and we look forward to many great 
things from you.
    I'll now yield to Mr. Lipinski.
    Mr. Lipinski. Thank you. I thank all the witnesses for 
their testimony. In Dr. Monroe's testimony, he presents the 
idea of establishing a new quantum engineering degree programs 
at universities as a component of the National Quantum 
Initiative. And Dr. Guha, I know that the University of Chicago 
has already established one of the first quantum engineering 
degree programs.
    So Dr. Guha, could you describe the program at UC? Is there 
any advice you'd give to other universities interested in 
launching their own programs such as this?
    Dr. Guha. Thank you. So, the Chicago Quantum Exchange was 
formed very recently out of an organic need to connect 
industry, university, and the National Laboratories together. 
We believe that the future of education, particularly in the 
quantum information sciences, lies in establishing 
multidisciplinarity and the ability to connect academia and 
industry together in order to make progress in an important 
area such as this.
    So the Chicago Quantum Exchange has been formed by the 
University of Chicago, as I mentioned, along with Argonne 
National Labs and Fermi Labs. Students will work with staff 
scientists in the government labs as well as with academia. We 
have recently received some funding from the National Science 
Foundation, along with Harvard, in order to be able to have 
students, graduate students have tandem advisors, one from 
industry, one from academia, to push forward with this concept 
that we really need to start pulling industry and academia and 
government labs together. This really needs to happen if we 
want to be able to translate basic science eventually into 
applicable technology.
    Mr. Lipinski. In the degree program itself, is there 
anything that you would--advice to give other universities 
interested in launching their own such programs that perhaps if 
they don't have the access to a National Lab like Argonne that 
UC has?
    Dr. Guha. I think that the access to the National Labs that 
UC has is a huge advantage. We've seen that it helps us attract 
students, for instance, because these labs have capabilities 
that are unmatched at universities.
    The other part that we focused for the Ph.D. program is, as 
I mentioned, in pushing forward multidisciplinarity, connecting 
with computer science. If you look at the faculty at the 
University of Chicago involved in quantum information sciences, 
they come from a variety of backgrounds, from physics. My own 
background is in metallurgical engineering to computer science, 
nanosciences, nanotechnology, I've worked in these areas over 
the past decade, has improved the interdisciplinarity of the 
field. But this takes it one step further so the educational 
content, we try to reflect that.
    Mr. Lipinski. I know, Dr. Monroe, you're proposing the 
National Quantum Initiative. It includes the development in 
support of four very well-funded quantum innovation labs. I 
think this is--is this something similar to--do you see these 
as being similar to the Chicago Quantum Exchange, that concept?
    Dr. Monroe. I would say to back up a little bit. At my 
institute, at the University of Maryland, we probably have the 
largest cadre of academic and government researchers in quantum 
sciences in one place, including NIST, LPS which is part of 
NSA, and the university. We have a computer science center, a 
quantum science center, and an engineering center is on the 
way.
    But I applaud the efforts at Chicago which is obviously 
well-situated with Fermi and Argonne Labs in the back yard. And 
for this National Quantum Initiative, I think we need to have a 
critical mass of people from different disciplines. It's 
absolutely critical. Whenever you use your iPhone, you don't 
know or understand what's inside, and that's why it's useful. 
We need people to program the higher levels of these devices, 
and they will not be knowledgeable about every little piece. 
You just can't. I think I made an analogy to the aircraft 
engineering. I don't think there's a single person that 
understands every piece of an F-35. It's too big and complex. A 
large quantum computer is not as yet complex as that, but it's 
approaching that. When it gets big, it will be. And so we're 
going to have to. It's required that this field--and I think 
I'm echoing everything all the witnesses are saying--that we 
have people from a variety of fields, including engineering, 
computer science, physics, all the physical sciences, 
chemistry, information theory, mathematics.
    Mr. Lipinski. Okay. Thank you. My time is up so I yield 
back.
    Chairwoman Comstock. I now recognize Mr. Lucas forfive 
minutes.
    Mr. Lucas. Thank you, Madam Chairwoman. Dr. Crowder, in 
your testimony you conclude that federal grants in support of 
core quantum research and development are being eclipsed by 
other governments. Can you expand on that for a moment?
    Dr. Crowder. Sure. I mean, the United States has put a lot 
of investment into quantum information science. But if you just 
look at the estimates that folks like McKenzie have done and 
just look at the announcements recently by China and by other 
countries, they are investing more heavily than we are.
    I think it's really important, again, from an industry 
perspective, especially a multi-national company like IBM that 
has a view of more than just the United States, that we 
continue to do the basic research for two reasons, one, because 
of what my colleagues here have stated in terms of just pushing 
the technology forward but also really to build the skills that 
are going to be necessary for commercialization. I mentioned it 
before. There are three types of skills that we see gaps in. 
Some of them I would say, like FPGA programming or more 
traditional skills, that maybe are mid-career we can train 
people to go into.
    But quantum information science requires pretty in-depth 
graduate-level work, and if we do not continue to fund basic 
research at the graduate and post-doctorate level in this 
country, we just won't have the skills.
    Mr. Lucas. To continue with that line of thought, and 
whether it's specific areas of research that are being outpaced 
in or areas where we should be engaged, that would be vital to 
our dominance, at the pace we're at right now, looking at what 
the rest of the world is doing based on the information 
available to you, at what point do we get behind the curve that 
we can't catch up if we don't make those investments? Because 
certainly there comes a point. If you get far enough out, ahead 
of the rest of the world, then you can't catch up.
    Dr. Crowder. Yeah, as other people have said, I do think 
we're at a couple inflection points here. We're at the stage 
now where quantum computing is becoming real. I mean, we put a 
real quantum computer, albeit small one, on the Internet last 
May, May 2016, and it's been up and running since then and 
we've, you know, grown that from 5 qubits to 16 qubits, and 
we've announced that this year we're building slightly more 
powerful quantum computers for, you know, commercial 
availability.
    So I think we're at a very interesting inflection point in 
this technology. If we don't make the investments in both the 
underlying skills and also as other people have mentioned, the 
technology of people learning how to use these systems, we 
will, from an American point of view, fall behind. I can't give 
you an exact date, but the trajectory isn't sufficient.
    Mr. Lucas. Dr. Monroe, along that similar line, when it 
comes to research and infrastructure involving light sources or 
neutron sources, follow up if you would for a moment, expand a 
bit on how we're faring in that international competition, real 
or imaginary.
    Dr. Monroe. As you've heard today, there are a variety of 
technologies that are behind successful quantum device, and 
these are technologies that are themselves maybe not 
necessarily quantum. I think Dr. Williams mentioned the idea of 
purifying isotopes of silicon and make it ultra-pure, and 
through some of our DOE labs, we are world leaders in that 
area. I think we have a proud history of leading device 
fabrication in silicon which will play a role in almost every 
quantum technology, even if it's not based in the bulk of 
silicon. For instance, in my technology, we use silicon 
electrodes that are pretty far away, but they need to be 
machined to be just beautiful. And this happens at Sandia 
National Laboratory, a DOE laboratory, and no place in the 
world can really compete at that point. I think the fact that 
we have many big corporations, IBM, Google, Intel, Microsoft, 
playing in this field is really the strength we have. And to 
me, it's really a workforce issue. And I think other countries, 
from what I see, they can organize in a top-down way because 
often the industry is their country. They're very linked that 
way. And in a sense, there are coordinations that can happen 
that are very fast in some places, particularly China. And I 
see in the U.S., our system is not or maybe it shouldn't be 
like that, but the government can play a role I think to better 
bring together academic research in this field, pure science, 
the devices, the manufacturing, and the workforce that will be 
at industry.
    Mr. Lucas. Thank you, Doctor. I yield back, Madam Chair.
    Chairwoman Comstock. I now recognize Mr. Veasey for five 
minutes.
    Mr. Veasey. Thank you, Madam Chair. I wanted to ask Dr. 
Guha about collaboration and was wondering if you could 
describe how the private sector partners with National 
Laboratories on quantum-based technologies and how has this 
relationship changed as the investments in quantum information 
science, both public and private, have increased in recent 
years?
    Dr. Guha. So there is collaboration between the private 
sector and the public sector in, you know, areas related to 
quantum information sciences through the large user facilities, 
for instance, the light sources. Companies like IBM have used 
our light sources at Argonne. This is just one example. Also 
through the nanoscience facilities, the NSRCs. That's another 
channel through which this is--these are also--there are five 
such user facilities across the U.S. distributed in the DOE 
labs. And that's another avenue where we collaborate with 
industry because the Nanoscience Research Centers possess 
state-of-the-art capabilities for manipulation of atoms and 
structures at the nanoscale.
    There have been good examples in areas such as battery 
development, for instance, at Argonne again to give you an 
example where cathode materials have been developed through 
basic energy science's funding at Argonne, then through ERE 
funding, and now these are in major hybrid cars that are sold 
in the U.S. and worldwide.
    So there certainly is a structure and a system for this 
type of public-private collaboration. And I think this would 
only increase as we go forward and put more emphasis on quantum 
information sciences.
    Mr. Veasey. Thank you very much. I also want to ask you 
about the Department of Energy. As you know, it's home to many 
scientific user facilities that focus on the fundamental 
sciences that underpins quantum technologies. How are users 
taking advantage of the facilities stewarded by the DOE Office 
of Science to advance our understanding of quantum information 
science?
    Dr. Guha. So that's a good question. I'll give you another 
example. For instance, if we go back to the nanoscience 
research facilities, some of the tools that we are starting to 
build and starting to equip ourselves with are tools that can 
deal with single photon measurements to measure correlations 
between different single photon emitters. So these are tools 
that basically now start enabling you to figure out how to 
create and manipulate single quanta of information and try to 
look at the entanglement between them, which is sort of at the 
heart of quantum information sciences.
    So we are beginning to start getting these tools on line 
and pulling in users, initially from academia and then from the 
industry as well hopefully as we go forward. So these are 
things that are beginning to happen.
    Mr. Veasey. Thank you. Thank you very much. Madam Chair, I 
yield back my time.
    Chairwoman Comstock. I now recognize Ms. Bonamici for five 
minutes.
    Ms. Bonamici. Thank you very much, Chair Comstock. Thank 
you to each of the witnesses. Dr. Monroe, you talk in your 
testimony about the challenges of transition from research to 
marketplace, and that's an issue that we've discussed many 
times on this committee, commercialization of research, and you 
mention workforce challenges and dealing with small companies 
where there are not yet high-volume applications and the lack 
of expertise. So that's what you mentioned. Are there policy 
barriers that we as Congress could address? Are there barriers 
through policy changes that we could work on?
    Dr. Monroe. Thank you for the question. The one I would 
bring up--and again, I'm opening a can of worms. It's 
intellectual property laws, and I think my colleague, Dr. 
Williams from NIST, brought this up. And in my view, to get 
full engagement of industry, they have to be able to protect 
their own IP, their own interests in the long run, but they 
also--I think the reason it could work, having an innovation 
lab, quantum innovation lab, is that these big industry 
players, they understand that they're going to get people. 
They're going to get qualified people that can go back home and 
then build devices that can be commercial.
    So again, I don't know the answer to it. I'm probably not 
the expert here with regard to IP law. But somehow, to dangle 
that carrot in front of industry to have their engineers 
embedded. I will note, by the way, that Intel has an 
arrangement with the University of Delft in the Netherlands 
where they do exactly this. And I don't know exactly how this 
works with regard to IP, but they have embedded engineers that 
are building silicon devices at Delft. And the researchers 
there, the academics, they're reaping the benefits of having 
professionals in place that really know this stuff.
    Ms. Bonamici. Terrific. We can look at that model and also 
work with our colleagues on the Judiciary Committee on the IP 
issues. And Dr. Monroe, to follow up your National Quantum 
Initiative, the way I understand it, you're really talking 
about four well-funded quantum innovation labs. So I wanted to 
ask, in that type of model, is there a way that we could 
address--you know, some of the breakthroughs have come from 
unexpected places. How would that model be able to work with, 
for example, the bright faculty and students at lesser-known 
colleges and universities or the small businesses that are not 
in the vicinity of one of those innovation labs? What would be 
the plan to be more broad-reaching than just having the four 
innovation labs?
    Dr. Monroe. Well, I think it would require full engagement 
of relevant agencies, and I think the science agencies that 
were in the previous round of witnesses, DOE, NIST, and NSF, 
are natural to play a huge role in making these hubs happen. 
And NSF in particular, they deal with blue skies research. They 
deal with small colleges. They're very good at bringing big 
science, cutting-edge science, down to even undergraduate 
institutions. So I think having their engagement will be 
important.
    And I might add, one federal vehicle that also works very 
well with industry is the SBIR and STTR programs. These are----
    Ms. Bonamici. Right.
    Dr. Monroe. --grant programs, largely from the DOD, that 
can go into industry for more researchy type things.
    Ms. Bonamici. Terrific. And for all the panelists, the 
title of this hearing is of course about American leadership. 
And I know it's been addressed and the Chair brought it up and 
others have as well.
    Dr. Monroe, you just mentioned the Intel partnership with 
Delft. Are there, among the panel there, other examples where 
we could look at either models, work that's being done in other 
countries? Where are we seeing leadership efforts that we could 
either replicate or that we should take note of? Dr. Crowder?
    Dr. Crowder. Yeah. I think one of the things that you see 
in Europe especially is research institutions deeply partnering 
with industry participants to provide them with access to 
quantum technologies. That's one of the things we haven't 
talked about too much on this panel is not just the underlying 
quantum technology itself but the algorithms and use cases that 
you need to develop for that. And you see things going on in 
the UK, in Oxford, things going on in Germany and some of the 
research institutions there that I think are really best 
practices, where they're--I can certainly see a place like 
Oakridge expanding their test beds to do very similar things 
to, you know, open up access through their user facilities to 
these new technologies.
    Ms. Bonamici. Thank you. In my remaining few seconds, Dr. 
Guha or Dr. Monroe, do you want to add to that?
    Dr. Guha. I think I'd just like to add one more point to 
what Dr. Crowder said which is that, you know, if you look at 
China and the funding they are investing, they're putting it in 
focused centers. And I think there's some benefit to that. And 
I think we should think about that as well.
    If you look at the European funding, it's going more 
distributed. And I feel that the focused approach, you know, 
this is something we ought to look at carefully.
    Ms. Bonamici. Thank you. And as I yield back, Madam Chair, 
I just want to point out in follow up to the prior panel that 
in South China, the South China Morning Post, they just had an 
article about their new STEAM school. And a recent study in 
Korea found that STEAM is a highly effective teaching and 
learning method.
    So as I yield back, I'll point that out to you, Madam 
Chair, and thank our colleagues.
    Chairwoman Comstock. Thank you.
    Ms. Bonamici. Thank you.
    Chairwoman Comstock. And I now recognize Representative 
Tonko for five minutes.
    Mr. Tonko. Thank you, Madam Chair. Quantum information 
science is a rapidly growing field with public and private 
investments growing across the world. Just how does the United 
States stack up against international competitors in this 
field? Who's leading the race in developing the next generation 
of what may well be revolutionary technologies?
    Dr. Monroe. Thank you for the question. I might begin on 
academic side in that by its nature, academic science is 
international, and there are many great collaborations. I have 
some in Europe and so forth. And I would say academically, the 
science behind QIS is proceeding most rapidly in the U.S. 
still. China is not far behind and the same can be said for the 
EU. I think they're all powerhouses in this field.
    In terms of the technology development, this is where the 
U.S. is ahead for now, and I think it's largely driven by 
industry. We have the industry that the others are struggling 
to come up with. But I think where China and the EU have an 
interesting advantage is just how they can make top-down things 
happen, and it's just the nature of the beast.
    We keep returning to China. This is a very capital-
intensive field to get this exotic hardware to engineer. It 
does take a large amount of investments, and I think that 
China, without the bat of an eye, can just do it.
    So this is something I look in the future as maybe an early 
warning sign that, you know, now is the time to get a head of 
the curve on that.
    Mr. Tonko. Certainly now is not the time to cut into some 
of these investments, as we've heard?
    Dr. Monroe. Yes, I agree with that.
    Mr. Tonko. Okay. Do our other doctors have any comments in 
that regard?
    Dr. Guha. So I agree with Dr. Monroe that the U.S. is 
leading the race, but the next few years are going to be very 
interesting, particularly with respect to China. There's two 
things to note. One, the results on their satellite link that I 
think is an engineering tour de force. This type of link was 
first, you know, demonstrated via a DARPA project in 2003 
between Boston University and Harvard and a private company, if 
I remember correctly. But the fact that they're able to do this 
via satellite is a big deal, and we should take notice of this. 
And the second is the hiring that's going on in China in the 
quantum area, in hiring Ph.D. scientists putting huge amounts 
of investments in starting up labs.
    So we really need to take note of this. In the next few 
years, you know, China has I believe made the decision that 
they want to wrap up in this area, although the U.S. clearly 
has the superiority today.
    Mr. Tonko. Um-hum. And Dr. Crowder?
    Dr. Crowder. I think my colleagues have said it well. I 
mean, I think American industry clearly has leadership in this 
space. I think from an academic point of view the United 
States, our academic institutions are clear leaders in this 
space, although in academics and skill development I will say 
that there is a lot of good work going on worldwide. So there's 
a lot of skill development happening in Europe, in Canada, and 
Australia and Japan, as well as in China.
    Mr. Tonko. And what would you suggest we need to prioritize 
in order to secure our competitive edge here in this critical 
field? You talked about us, you know, holding onto maybe a 
leading status. But what's most critical for us to do to 
maintain that or grow it?
    Dr. Crowder. So I think there's two levels here, one, which 
I touched on before which is we need the skill development from 
a U.S. economy point of view. I think we do have industry 
leadership in actually building these systems and the 
technology behind it, but I do think we need to continue to 
invest highly in skill development which means investments and 
basic research. And then the second is we need to make these 
systems available to U.S. researchers and to U.S. companies. 
The algorithm development we haven't really touched on her, but 
there's a lot of possibilities for quantum. But until someone 
develops the algorithms, those possibilities will not be turned 
into real business value. There's a lot of work that needs to 
get done in algorithm development.
    Mr. Tonko. Dr. Monroe?
    Dr. Monroe. Yeah, thanks for the question. I might add to 
that that it's a precarious situation for industry or a company 
to be in a game where they're building a device where we don't 
actually know exactly what it's going to be used for. This is 
exactly what happened with conventional computing back in the 
'50s. It was built for certain purposes but nobody envisioned 
packing billions of transistors on a watch or an iPhone.
    Dr. Kurose in the last session mentioned that quantum 
computing is not a panacea. It's not going to solve every type 
of problem, but we need to get these devices out there to 
users, for users to solve the problem. That may be a difficult 
argument to make to stockholders in a big company. So that's 
where I think there is some vulnerability.
    Mr. Tonko. Dr. Guha, did you----
    Dr. Guha. I will simply add that, you know, we need to make 
sure that we continue to have superiority in the basic 
underlying science behind this field. That's absolutely 
important. And we should probably set some goals and targets, 
you know, ten-year goals, 15-year goals, and sort of pull the 
science along through those targets.
    Mr. Tonko. Thank you. I yield back, Madam Chair.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Foster for five minutes.
    Mr. Foster. Thank you, Madam Chair. First, before I go into 
policy discussions, Dr. Guha, a question about your previous 
existence. What is the current state of the art for thinox 
dielectrics versus high-k dielectrics, just in terms of the 
number of atomic layers?
    Dr. Guha. So the electronic equivalent number of atomic 
layers is something on the order of, you know, seven angstroms 
or something, less than a nanometer. It's the electronic 
equivalent. Physically it's a little thicker but that's what 
you gain from using a high dielectric constant material.
    Mr. Foster. Yeah. This has evolved so much since I was 
designing ICs back in the 1990s. It's amazing what has been 
accomplished. And I guess there's no clear example of Moore's 
Law hitting the fence than just the thickness of, you know, the 
dielectric barriers and mosfets.
    Anyway, now back to the policy stuff, you've touched on a 
lot of issues I was thinking of bringing up having to do with 
what is the right development model for something like this 
that requires a long-term investment? I mean, the whole 
business was jump started by the discovery in principle I 
believe at Bell Labs that you could actually in principle, 
theoretically, factor large primes with quantum computing and 
thereby blow up, you know, the then-current cryptography, which 
had huge implications.
    So the problem there is Bell Labs is gone, right? And 
they're gone because they existed only because we basically 
socialized that piece of research that we provided Bell Labs 
with a monopoly on long distance that provided an income stream 
to develop a really a wonderful natural resource that only 
existed because, you know, we gave them a special monopoly. You 
know, it's a peculiar way to have socialized research. The 
national labs are really the only, you know, socialized 
research that we actually have in this country, and it's unique 
and I think it's necessary for long-term and speculative 
developments. You simply can't, as you say, sell the 
stockholders on this.
    One of the biggest things that I worry about all the time 
is intellectual property. You know, this is a huge problem. 
It's sort of an interesting policy debate because it doesn't--
it's something that's not really a moral argument. It's an 
argument on how you maximize economic and technological 
progress.
    And so are there things that you think are really--you 
know, if you could have two or three fixes in intellectual 
property, what would they be? You know, for example, many 
countries don't allow algorithms to be patented, computer 
algorithms to be patented. And that's something that's gone 
back and forth in this country. So how does intellectual 
property play into the development of, say, quantum algorithms 
on this? Does our current policy encourage it or discourage it?
    Dr. Monroe. Yeah, I will say that in my experience in small 
business, we're told by our investors you have to get an IP 
portfolio. And it's almost irrational. I guess as a scientist I 
find it as a little bit of a nuisance, but I do understand the 
importance of it because if you don't have it, you will be 
playing defense against somebody who is just sitting on 
intellectual property.
    So I would not be against tightening different facets of 
what can be patented or not, mathematic equations----
    Mr. Foster. As expanding--but saying, you know, if you 
could patent quantum algorithms for example, you know, would 
that increase or decrease the amount of interest and the rate 
of development of these?
    Dr. Monroe. My gut feeling is it would decrease. I think 
it's such an early stage right now that it will maybe scare 
away others and impede progress in the field.
    Mr. Foster. Yeah, that would be interesting to talk to, you 
know, venture capitalists to see if they agree with the same 
thing because it's a--now, in addition, Dr. Guha touched on the 
question of whether we centralize or disperse, you know, the 
centers of excellence. Do we have centers of excellence or do 
we do, you know, the European model of spreading the technology 
to a zillion institutions? You know, the obvious--if you see 
what industry does for things like biotechnology, they just 
have a very strong clumping effect that occurs naturally, not 
so much because of the intrinsic merits of where they decide to 
clump but simply because of the network effects of having a 
bunch of people nearby that you can, you know, steal employees 
from each other as you expand and contract.
    And so, you know, is this something that we should be 
fighting against or should we, you know, in the European way of 
trying to spread out the research or should we just say, okay, 
we're going to have a clump of this, you know, for example, in 
the Illinois 11th District would be a fine place? But you know, 
what are your thoughts on that? And I will skip Dr. Guha which 
I presume would conclude, would agree with me here.
    Dr. Crowder. Yeah, I think there's two competing forces 
here. I definitely think that having centers of excellence and 
concentrating, especially for topical areas, makes a whole lot 
of sense from a resource point of view.
    On the flipside, when I talk to companies about their plans 
to leverage this, they have the same skill issues that other 
people have. And what they want is to partner with a local 
university to do the early research and then so they have 
someone to hire in two years when this becomes large.
    So I do think we need to balance it. I do think there's 
advantages of having centers of excellence, especially from an 
access point of view. It doesn't necessarily make sense for 
everybody to have a user facility for, you know, quantum 
computing. You should have, you know, a couple user facilities 
that, you know, other people can get access--other academic 
institutions can access from. Similarly, I think you need 
centers of excellence in particular areas so you have a 
critical mass. But I do think you need regional participation 
and the academics behind this because you will have companies 
that need to get skills from regional areas.
    Dr. Monroe. Do I have time to add one thing? As a high-
energy physicist, you certainly appreciate that CERN and Fermi 
Lab are these big naturally clumping things. You're studying 
one problem, and it takes a thousand people to do that.
    Quantum computing is not that. I think there are many 
different technologies. They're wildly different, and I think 
these innovation hubs can maybe specialize in one at a time at 
each hub, for instance, that's one model. I think it is 
clumping, not as much as high-energy physics, but I think we 
would find a few areas of specialization. One might be more 
devoted on software, a computer side of things where they don't 
care about the hardware, and the others will develop particular 
hardwares.
    Mr. Foster. Fascinating. Let's see. Do any of you know 
roughly how many, you know, say photonics Ph.D.s come out of 
China every year compared to the U.S.? Do you have a feeling 
for that or just overall? Ph.D.s with relevant skills.
    Dr. Monroe. I think they probably beat us on that. I 
actually don't know the numbers. I shouldn't speculate.
    Mr. Foster. Okay. I remembered----
    Dr. Monroe. There's a lot. There's a lot.
    Mr. Foster. --seeing a very, in some sub-specialties, at 
least a very high ratio, and you know, that's a problem. 
Because the workforce development is huge, and I think it's--
anyway, I just want to thank you all for bringing this, 
attending this very important hearing, and thank the Chair for 
holding the hearing.
    Chairwoman Comstock. Thank you. And I thank this panel of 
witnesses also for their testimony and expertise. As you can 
tell, the members were very interested in this topic, and 
obviously it's a very competitive area where we appreciate all 
of your insight. I think it will need to be a continuing 
conversation on how we can continue to be the leaders and 
remain competitive and the kind of workforce that we're going 
to need. I think there'll be a lot more questions to ask and 
issues to develop along this way.
    So the record will remain open for two weeks for additional 
written comments and questions from the members. And the 
hearing is now adjourned.
    [Whereupon, at 12:48 p.m., the Subcommittees were 
adjourned.]

                                 <all>
</pre></body></html>
